<html>
<title> - PRISONERS OF THE PURGE: THE VICTIMS OF TURKEY'S FAILING RULE OF LAW</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      PRISONERS OF THE PURGE: THE 
                      VICTIMS OF TURKEY'S FAILING RULE OF LAW

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2017

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-1-7]
                             
                             
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                             
                       

                       Available via www.csce.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-643 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>                       
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               
               
            
              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

                     Executive Branch Commissioners   
               
                     Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  
                                  


                      PRISONERS OF THE PURGE: THE

                VICTIMS OF TURKEY'S FAILING RULE OF LAW

                              ----------                               
NOVEMBER 15, 2017

                             COMMISSIONERS

                                                                   Page
Hon. Thom Tillis, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Michael C. Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5
Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    21
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................    28
Hon. John Boozman, Commissioner, Commission on Security and 
  Cooperation in Europe

                               WITNESSES

Jonathan R. Cohen, Deputy Assistant Secretary, Bureau of European 
  and Eurasian Affairs, U.S. Department of State.................     5
CeCe Heil, Executive Counsel, American Center for Law and Justice    15
Jacqueline Furnari, Daughter of Andrew Brunson...................    16
Nate Schenkkan, Director of the Nations in Transit Project, 
  Freedom House..................................................    18

                                APPENDIX

Prepared statement of Hon. Thom Tillis...........................    33
Prepared statement of Hon. Chris Smith...........................    36
Prepared statement of Jonathan R. Cohen..........................    38
Prepared statement of CeCe Heil..................................    43
Prepared statement of Jacqueline Furnari.........................    45
Prepared statement of Nate Schenkkan.............................    48

                                 [iii]
                        MATERIAL FOR THE RECORD

Questions submitted by Hon. Thom Tillis
    to Jonathan R. Cohen.........................................    55
    to CeCe Heil.................................................    60
    to Nate Schenkkan............................................    62
Questions submitted by Hon. Jeanne Shaheen
    to Jonathan R. Cohen.........................................    65
Letter from Kubra Golge to Congress..............................    68
Statement from the Committee of Concerned Scientists.............    69
Freedom House report on internet freedom in Turkey...............    74

 
                      PRISONERS OF THE PURGE: THE
                VICTIMS OF TURKEY'S FAILING RULE OF LAW

                              ----------                              


                           November 15, 2017

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:30 a.m. in Room 124, Dirksen 
Senate Office Building, Washington, DC, Hon. Thom Tillis, 
Commissioner, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Thom Tillis, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Michael 
C. Burgess, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Randy Hultgren, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Jeanne 
Shaheen, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Benjamin L. Cardin, Ranking Member, Commission 
on Security and Cooperation in Europe; and Hon. John Boozman, 
Commissioner, Commission on Security and Cooperation in Europe.
    Witnesses present:  Jonathan R. Cohen, Deputy Assistant 
Secretary, Bureau of European and Eurasian Affairs, U.S. 
Department of State; CeCe Heil, Executive Counsel, American 
Center for Law and Justice; Jacqueline Furnari, Daughter of 
Andrew Brunson; and Nate Schenkkan, Director of the Nations in 
Transit Project, Freedom House.

  HON. THOM TILLIS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Tillis. Good morning, everyone. This hearing of the 
Helsinki Commission will come to order.
    I want to welcome everyone here to this Helsinki Commission 
hearing titled ``Prisoners of the Purge: The Victims of 
Turkey's Failing Rule of Law.'' I'm honored to be chairing this 
hearing on behalf of Senator and Chairman Wicker.
    As of today, an American pastor has spent 404 days in a 
Turkish jail without a trial, without access to evidence 
against him, the subject of a vicious smear campaign from the 
Turkish press, and facing life in prison on fabricated charges 
of being a terrorist and a coup plotter.
    Elsewhere in Turkey, a Turkish-American NASA scientist has 
spent 480 days in prison, much of it in solitary confinement, 
on terrorism and espionage charges springing from a baseless 
testimony of a disgruntled relative and a bizarre compilation 
of circumstantial evidence, including a dollar bill seized from 
his parents' home.
    Today also marks 253 days behind bars for a veteran Turkish 
employee of the U.S. consulate in Adana who stands accused of 
terrorism for doing his job as he has for 30 years: 
communicating on behalf of the United States Government with 
local community 
contacts.
    These prisoners--Andrew Brunson, Serkan Golge, and Hamza 
Ulucay--are the innocent victims of Turkey's collapsing rule of 
law. With every passing day, the injustice of these detentions 
compounds itself. For the Brunson family next week, another 
Thanksgiving apart. For Kubra and her two young kids, another 
day away from their home in Houston. For Hamza, another 
inexplicable punishment for his dedication to the job he loves.
    But the focus of this hearing is not personal, it's 
principle. Just as Andrew, Serkan, and Hamza have been victims 
of Turkey's failing rule of law, there are literally thousands 
more like them behind bars today. Since imposing a state of 
emergency nearly 16 months ago, the Turkish Government has 
detained more than 60,000 people and fired or suspended upwards 
of 100,000 others from their jobs. The so-called Decree Laws 
authorizing these punitive measures do not establish any 
evidentiary standard for application, thereby permitting wide-
scale abuse as seen in the cases I've highlighted.
    Of course, context matters, and the Turkish Government 
invokes its constitutional state of emergency provisions in the 
wake of the July 2016 coup attempt, an unacceptable and violent 
attack on the constitutional order of a NATO ally--an attack I 
unequivocally condemn. But the question is not whether Turkey 
has the right to pursue justice after such a national trauma: 
the question is how it goes about it.
    The Helsinki Commission has called this hearing today to 
get to the bottom of the accumulating injustices under the 
state of emergency. As a participating State of the 
Organization for Security and Cooperation in Europe, Turkey has 
committed itself to upholding certain rule-of-law standards 
even under extraordinary circumstances. Among these commitments 
is the guarantee of equality before the law.
    However, Turkey's commitment to this principle has been 
called into serious question. Just two months ago, President 
Erdogan proposed an outrageous swap: Andrew Brunson, a pastor, 
``for a pastor'' in his words. If the United States would 
circumvent its rule of law to extradite a free man, Erdogan 
suggested, then Turkey would release a wrongfully imprisoned 
one. Let us be clear about what President Erdogan proposed: 
This is not justice; it's ransom. The United States should not 
expect, much less accept, this sort of treatment from a NATO 
ally.
    The harassment and detention of our consulate staff has 
also overstepped the bounds of diplomatic conduct among 
partners. I was glad to see the State Department in the past 
month impose some real cost for this behavior by suspending 
non-immigrant visa services to Turkey. While the department 
announced last week that it had resumed these services on a 
limited basis and received assurances about the security of our 
local employees, I hope that we are clear with Turkey that we 
will not accept anything short of true and timely justice for 
our detained consulate staff and our citizens behind bars.
    I also hope that we will not tire in advocating for the 
basic rights and freedoms of thousands of Turks impacted by 
these sweeping purges--academics, mayors, legislators, 
journalists, and human rights defenders among them.
    Let me conclude by saying that it is in the interest of the 
United States to have Turkey as a strong and reliable ally. 
From strengthening NATO to fighting terrorism to resolving 
conflicts in the Middle East, we have important work to do 
together, and we will be more successful if we can work as 
partners. The urgency of these tasks underscores the importance 
of resolving distractions and rebuilding the trust we need to 
achieve common objectives. And, as always, our partners are 
strongest when they are rooted in shared principles.
    We have two excellent panels of witnesses today to examine 
these topics, and I'll introduce the panels separately. But I 
would like to say at the outset that I am especially pleased to 
have with us a State Department witness, Deputy Assistant 
Secretary for European and Eurasian Affairs Jonathan Cohen, to 
provide the administration's perspective on these developments, 
U.S. policy towards Turkey, and the future of the bilateral 
relationship.
    I'm also honored to have on our second panel Jacqueline 
Furnari, Andrew Brunson's daughter, from my State of North 
Carolina, and I understand a proud student of UNC Chapel Hill.
    Before I introduce the panels, though, I'd like to offer my 
fellow commissioners an opportunity to make opening statements.

 HON. MICHAEL C. BURGESS, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Burgess. Well, thank you, Senator Tillis. Thank you, 
Secretary, for agreeing to be here this morning. And I want to 
thank the Helsinki Commission for convening the hearing on what 
has been a pressing issue since July of 2016.
    Five days ago, Turkish and American leaders gathered at the 
Republic's New York City consulate to commemorate the life and 
legacy of Mustafa Kemal Ataturk, one of modern history's great 
reformers. Following the conclusion of World War I, Ataturk 
sought to create a democracy based on the rule of law amidst 
the ashes of the Ottoman Empire.
    As with all democracies, the Republic of Turkey has had its 
share of challenges and triumphs. Since its formation, Turkey 
has balanced between its constitutional secularism and its 
religious heritage. From the recognition of the Lausanne Treaty 
in 1923, there have been concerns that the country's religious 
population is under attack by its secularists. All the while, 
fear that Turkey will fall back into a country dominated by 
religious hardliners remains an inescapable concern. The 
constant battle between the two extremes I'm certain has left 
many Turks unsure of who or what will come next.
    Most recently, the failed coup of July 2016--and I join 
with Senator Tillis in condemning in the strongest possible 
terms that activity--but that left the country clawing its 
self-inflicted wounds. Though carried out by military groups 
purportedly upholding Ataturk's original vision for the 
country, it is hard to believe that the Republic's founder 
would have supported open insurrection and violence in the 
streets, clashes between military and civilians, or the 
imprisonment of innocents.
    The uprising resulted in a widespread response by President 
Erdogan and his ruling Justice and Development Party. 
Unfortunately, the crackdown has left nearly 50,000 people 
incarcerated. And within this massive group are a dozen 
American citizens, including Pastor Andrew Brunson and NASA 
scientist Serkan Golge. These Americans, along with many of 
their Turkish counterparts, have only a tenuous charge against 
them: that they are agents and activists of Fethullah Gulen.
    Mr. Gulen--a Muslim leader in teaching a tolerant, outward 
approach to Islam--is yet another individual who the Turkish 
Government has decided to indict with almost no evidence. 
Despite an alliance between the Justice and Development Party 
and the Gulenists at the onset of Mr. Erdogan's political 
ascendancy, the two leaders suffered a breakdown in relations. 
Following the failed coup, the Erdogan government leveled 
charges against the cleric, claiming that he planned and 
incited the attempted regime change. Mr. Gulen has been living 
in self-imposed exile in Pennsylvania since 1999.
    Though the Turkish Government submitted a formal request 
for the extradition of Mr. Gulen, neither the State Department 
nor the Justice Department has received any information that 
would cause the United States to comply with this request. The 
Turkish Government has repeated, and with no evidence made the 
claim that Mr. Gulen funds schools, including some public 
schools in my home State of Texas, to radicalize students 
against the current Turkish Government.
    Though I am opposed to much of what President Erdogan does, 
I respect Turkish sovereignty and their self-determination. 
However, when the president begins targeting American citizens, 
especially our children, this is a bridge too far.
    In another incident early this year, supporters of 
President Erdogan, along with the president's own security, 
violently attacked a group of peaceful protesters outside of 
the Turkish ambassador's residence here in Washington, D.C. In 
this country, we do not attack those we disagree with. We do 
not start brawls to silence our detractors. In Turkey, 
President Erdogan may be able to declare a perpetual state of 
emergency and change the constitution to better suit his 
desires, but Washington is not Ankara, and Massachusetts Avenue 
is not an avenue in Turkey.
    The ongoing effort by the Turkish Government to intimidate 
Americans must end. The current detention of American citizens 
became all the more clear when President Erdogan stated, ``You 
have another pastor in your hands. Give him to us, and we will 
put yours through the judiciary. We will give him to you.'' 
Despite the strong, enduring alliance between our two 
countries, the United States cannot be expected to forego the 
rule of law in our country in order to extract some hint of it 
in another.
    I hope we can come to an amicable solution on these 
matters, but to do so it's going to take more than relying on 
the trust and goodwill that has historically been built between 
America and Turkey. It must require the adherence to the rule 
of law. I hope we move toward accomplishing that today.
    Thank you, Senator Tillis, for the recognition.
    Mr. Tillis. Thank you, Congressman Burgess.
    Congressman Hultgren.

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. Thank you, Senator Tillis. Dr. Burgess, good 
to be with you. Thank you so much to our witnesses.
    I'll be very brief. I want to hear as much as I can. And I 
apologize, Senator Tillis; I've got two markups over on the 
House side, so I'm going to have to leave in a few minutes.
    But I am passionate about fighting for people who are 
suffering around the world, people who are being mistreated, 
and especially when we see governments that are doing this 
mistreatment. I'm such a proud member of the Helsinki 
Commission, but also proud to be co-chairman of the Tom Lantos 
Human Rights Commission. And so I want to do everything we 
possibly can.
    That's my hope out of this hearing: To hear what we can do 
together--Senate, House, administration coming together to make 
sure that we bring these people home. Pastor Brunson is top of 
mind for me, but so many others that are suffering, that are 
wrongfully accused in so many ways, and these governments 
acting with what appears to be no accountability whatsoever. 
And we need to do everything we can to change that.
    So thanks again, Senator Tillis and the Helsinki 
Commission, for holding this hearing. I look forward to working 
with all of you, but also with our witnesses to see what we can 
do to, again, bring these precious people home.
    With that, I yield back.
    Mr. Tillis. Thank you, Congressman.
    Our first panel features Deputy Assistant Secretary Cohen. 
He's been deputy assistant secretary for European and Eurasian 
affairs, governing Cyprus, Greece, and Turkey, since August 
2016. He previously served in Baghdad as deputy chief of 
mission from 2014 to 2016, in Paris as the acting deputy chief 
of mission from 2013 to 2014, and as counselor for political 
affairs from 2011 to 2013.
    Mr. Cohen, thank you for being here. You may proceed with 
your opening statement.

        JONATHAN R. COHEN, DEPUTY ASSISTANT SECRETARY, 
             BUREAU OF EUROPEAN AND ASIAN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Cohen. Thank you, Senator.
    Senator Tillis, members of the Commission, thank you for 
inviting me to testify this morning. Today's hearing is an 
important opportunity to reaffirm the abiding U.S. interest in 
and commitment to democracy, human rights, and rule of law in 
Turkey. It's also an opportunity to underscore the enduring 
strategic value of the U.S.-Turkey alliance, despite the 
current strains in the bilateral relationship and the 
challenges facing Turkey today.
    Having spent the last 65 years as NATO allies, the United 
States and Turkey have deep, complex relations. With the 
second-largest military force in the alliance, a dynamic 
economy, and a population of 80 million, Turkey's critical 
position and regional clout have given Ankara significant 
influence over issues of core U.S. interest over the years, 
from Afghanistan to Iraq to the Balkans to Korea.
    For example, from the early 1990s until 2003, Turkey 
facilitated the no-fly zone over the Iraqi Kurdistan region, 
allowing it to develop in peace and escape Saddam Hussein's 
tyranny.
    In Afghanistan, Turkey was a major troop contributor to the 
International Security Assistance Force (ISAF), while also 
providing use of its airspace and allowing the refueling of 
U.S. aircraft on ISAF missions.
    Turkey's an important partner in the Global Coalition to 
Defeat ISIS, and provides critical bases for United States and 
coalition military forces, from which we conduct precision 
airstrikes; carry out intelligence, surveillance, and 
reconnaissance flights; maintain combat search and rescue 
units; and resupply coalition forces.
    We enjoy a robust and growing commercial relationship, a 
wide array of educational and cultural exchanges, and a vibrant 
foreign policy dialogue on issues ranging from Russian 
aggression in Crimea to limiting Iranian influence in the 
region to ending the war in Syria to the territorial integrity 
and unity of Iraq. We deeply value Turkey's contributions to 
global security.
    The United States and Turkey need each other. As 
Undersecretary of State Tom Shannon has said, ours is not a 
partnership of convenience, nor of temporary interests; it's 
one of conviction, a time-tested alliance built on the enduring 
foundations of common interests and mutual respect. Our 
partnership is the result of sustained diplomacy, continuous 
high-level engagement between our governments to address 
challenges, explore opportunities, and move forward on a wide 
range of joint interests.
    Since August, our presidents have had several phone 
conversations and have met on the margins of the U.N. General 
Assembly. Secretary Tillerson and Foreign Minister Cavusoglu 
speak regularly to consult on Syria, Iraq, and other issues. 
Our defense ministers have met twice since August. And of 
course, Prime Minister Yildirim visited Washington just last 
week to consult with Vice President Pence.
    The United States-Turkey relationship extends beyond our 
mutual interests in stability and security in the Balkans and 
the Middle East. Both President Trump and President Erdogan 
have committed to strengthening our trade and investment ties. 
Our extensive exchanges of students, scientists, and 
professionals ensure that our countries remain interconnected 
on a people-to-people level, and provide valuable opportunities 
for innovation and entrepreneurship, which are vital to our 
knowledge-based economies.
    Ankara seeks further improvement in each of these areas of 
cooperation, and so do we. We will continue our efforts to 
develop constructive dialogue with Turkey in order to maximize 
the enduring benefits of our strategic alliance.
    My remaining remarks today will focus on the United States 
Government's concerns about Turkey's protracted state of 
emergency, which has had negative effects on democracy and 
democratic institutions, on human rights, and on rule of law. 
Chief among those concerns is the security of and protection of 
human rights and fundamental freedoms for U.S. citizens in 
Turkey and locally employed staff at the U.S. Mission in 
Turkey, a number of whom have been arrested on dubious 
terrorism charges under the state of emergency.
    As I highlight these concerns, it's in the context of 
Turkey being a longtime friend and ally, and with deep empathy 
and appreciation for the fact that on July 15th, 2016, Turkey 
endured a traumatic coup d'etat attempt in which nearly 250 
perished and thousands were wounded. The coup attempt was an 
evil attack on the Turkish nation and a tragedy for Turks, who 
bravely took to the streets to defend their democracy.
    A few months after that, I stood in Turkey's Parliament 
building, the Grand National Assembly, and observed the 
destruction that Turkish Air Force F-16s had wrought on the 
people's house, in which all political parties sit. The Turks 
asked me to imagine the national trauma for us if such an 
attack were to happen here on our Capitol dome. It was a moment 
of profound impact for me. The Turkish nation was deeply shaken 
by the coup attempt, and remains so.
    It's to be expected that Turkey would--and we support its 
efforts to--investigate and arrest those who directly 
participated or materially aided in the planning, preparation, 
and conduct of the coup attempt. The United States Government 
is carefully reviewing material provided by Turkey related to 
the Turkish Government's request that the United States 
extradite Fethullah Gulen, and will give similarly careful 
consideration to any new extradition requests related to the 
coup attempt. We again underscore our willingness to assist 
Turkish authorities in their investigation of the attempted 
coup and support bringing to justice those who participated.
    But now, more than a year later, a restrictive state of 
emergency remains in place and appears to have been used 
expansively to target many Turks with no connection to the coup 
attempt. We were concerned to see Turkey extend the state of 
emergency for a fifth time on October 17th for an additional 
three months. The prolongation of the state of emergency has, 
in the view of the U.S. Government, negatively impacted Turkish 
democracy, rule of law, and respect for fundamental freedoms. 
We call on the Turkish Government to expeditiously end the 
state of emergency, release those not proven guilty of criminal 
offenses, and cease the seemingly indiscriminate prosecution of 
individuals--in many cases, individuals that appear to have 
been targeted because they criticized the government, its 
officials, or its policies, or have had contact with those who 
did.
    There have been dozens of U.S. citizens detained or delayed 
by Turkish security services in some capacity since July 2016. 
Several U.S. citizens, including U.S.-Turkish dual nationals, 
remain in prison under the state of emergency, all facing what 
we believe are dubious terrorism and coup attempt-related 
charges.
    Andrew Brunson, a United States citizen and Christian 
pastor who has lived in Turkey for nearly 25 years, has been in 
prison since October 7th, 2016. The outlandish charges against 
Mr. Brunson include gathering state secrets for espionage, 
attempting to overthrow the Turkish Parliament and government, 
and attempting to change the constitutional order.
    The United States consistently calls for Mr. Brunson's 
release at the highest levels. President Trump, Vice President 
Pence, and Secretary Tillerson have all raised his case 
multiple times with their Turkish counterparts. On August 15th, 
Secretary Tillerson publicly called for his release during the 
International Religious Freedom Report rollout. Our embassy in 
Ankara continues to engage on this case, and provides consular 
services to Mr. Brunson and his family, meeting with him and 
his wife on a regular basis.
    We remain deeply concerned about the detention of all U.S. 
citizens, including U.S.-Turkish dual nationals, who have been 
arrested under the state of emergency. We will continue to 
visit them when possible, raise their cases with our Turkish 
counterparts, and seek a satisfactory resolution of their 
cases.
    In addition to the other U.S. citizens I've mentioned, it's 
worth pausing to note that Henri Barkey, a highly respected 
Turkish-American, has been subjected to a particularly vicious 
and groundless series of attacks in the Turkish media, which 
allege that he is the subject of criminal charges related to 
the failed coup attempt last year. I want to state clearly that 
there is absolutely no merit to the absurd idea that Henri 
Barkey, who has served with distinction in various expert 
capacities both inside and outside the United States 
Government, had anything to do with the coup attempt, or that 
he was acting to undermine the government of Turkey. Such 
accusations set back our relationship with Turkey, and 
undermine the credibility of the Turkish media as well as the 
Turkish judicial process.
    Under the state of emergency, the government of Turkey has 
arrested two of U.S. Mission Turkey's locally employed staff on 
what we believe are specious grounds. Longtime U.S. Consulate 
Adana employee Hamza Ulucay has been in detention since 
February 23rd, 2017. On October 5th, Turkish authorities 
detained longtime Consulate Istanbul DEA local employee Metin 
Topuz. It appears to us that Mr. Ulucay and Mr. Topuz were 
arrested for maintaining legitimate contacts with Turkish 
Government and local officials and others in the context of 
their official duties on behalf of the U.S. Government.
    The targeting of U.S. local staff, particularly those 
responsible for law enforcement coordination, raised our 
concern over Turkey's commitment to provide proper security for 
facilities and personnel, leading to Mission Turkey's 
suspension of non-immigrant visa services on October 8th. We 
have received initial high-level assurances from the government 
of Turkey that there are no additional local employees of our 
Mission in Turkey under investigation. We have also received 
initial assurances from the government of Turkey that our local 
staff will not be detained or arrested for performing their 
official duties, and that the Turkish authorities will inform 
the U.S. Government in advance if the government of Turkey 
intends to detain or arrest a member of our staff. Based on 
these preliminary assurances, we determined that the security 
posture had improved sufficiently to allow for the resumption 
of limited visa services in Turkey.
    However, Mr. Ulucay and Mr. Topuz remain in custody, and we 
continue to have serious concerns about their cases. We'll 
continue to engage with our Turkish counterparts to seek a 
satisfactory resolution of these cases as well.
    As a longtime ally and friend, we want Turkey to be the 
best democratic partner it can be. We have long supported--and 
we will continue to support--democratic development there, 
because we believe that respect for the rule of law, judicial 
independence, and fundamental freedoms are sources of strength 
and expand our potential for partnership. We will continue our 
constructive dialogue on the range of foreign policy and 
bilateral challenges, and we will also continue providing the 
assistance our imprisoned citizens and local employees need. We 
will not rest until all of their cases are resolved.
    Members of the Commission, thank you for your attention 
today, and I look forward to your questions.
    Mr. Tillis. Thank you, Mr. Cohen.
    I am going to defer first to Congressman Hultgren, then 
Congressman Burgess, so that they can get back to other 
business. If you don't know what markups mean, that means the 
chairman gets mad when you don't show up because they need a 
quorum to get going forward, which is one of the reasons why 
some of the Senate members may come in and out. Congressman 
Hultgren.
    Mr. Hultgren. Thank you, Senator.
    And again, thank you for your service. Thanks for being 
here today.
    I'll be very brief because, again, as I mentioned, I'm 
going to have to sneak out in a couple minutes, but wonder just 
briefly if you could talk a little bit more about what we could 
do as the Senate and the House, working in these specific 
cases. You talked quite a bit about Pastor Brunson. I'm 
grateful to hear that you've been able to provide consular 
service to him and his family there, also with the dual citizen 
NASA scientist Serkan Golge. I wonder if you could talk a 
little bit more of what we can be doing to help, if anything, 
especially for Pastor Brunson, to get that release as soon as 
possible.
    And then, as much as to the extent that the Privacy Act 
restrictions allow you to answer, I wonder how many U.S. 
citizens, including dual citizens, are currently detained in 
Turkey on coup-
related charges. And do all of them have that same access to 
consular service? And is there anything else we can do for 
those people?
    Mr. Cohen. Thank you for those questions, and let me start 
with the last question first. Because I don't have Privacy Act 
waivers, I can't be specific on the numbers, but we have fewer 
than a dozen. I would say several, including U.S. citizens and 
dual nationals.
    The U.S. citizens were granted consular access quickly 
after they were detained. The dual nationals were not. Turkey 
does not consider dual nationals to be foreign citizens for 
purposes of consular protections. We consider anyone who has 
U.S. citizenship to be a U.S. citizen, and we pressed strongly 
for access for them. We were granted access last month--
October--and we now, I believe, have access to all of the dual 
nationals who are in custody.
    Similarly, some of the people in custody had difficulty 
getting access to legal counsel. After we pressed, we believe 
that they all now have had access to legal counsel.
    And this gets to the first part of your question, what you 
all and what we all can continue doing to help. Engagement is 
critical. The fact that the Senate and the House have sent 
letters to Turkish officials expressing their concern is 
important. I would encourage you, if you travel to Turkey, to 
meet with Turkish officials and raise these issues; if you have 
the opportunity here in Washington to meet with representatives 
from the Turkish embassy, to do the same; or to meet with 
Turkish officials when they come and visit.
    I should say I was in Ankara last month working on this 
basket of issues, and the approach that the Turkish officials 
had was a constructive one. They want to get past this problem 
as well. There are challenges on their side even for the people 
with the best will, because they also have a legal system that 
they have to navigate, and we have to be respectful of the 
limitations on them.
    But I would urge you to continue your engagement, and also 
to continue comparing notes with the State Department and the 
Department of Justice as we go forward.
    Mr. Hultgren. Thank you. We will definitely do that, and 
please stay in touch with us if there's anything else that 
comes up that you think would be helpful. We want to do 
anything we can to come together to get this done. So thank you 
again.
    Thank you, Senator Tillis and Dr. Burgess, for letting me 
jump in front here a little bit.
    Thank you.
    Mr. Tillis. Thank you.
    Congressman Burgess.
    Mr. Burgess. Thank you, Senator Tillis. And again, thank 
you for convening this hearing.
    Secretary Cohen, thank you for your mention of Northern 
Watch. My youngest child was a young airman back in 2000 and 
was stationed at Incirlik and was part of that activity, and at 
least through the eyes of a 19-year-old at the time was always 
well-treated by the citizens of Incirlik. And he certainly 
enjoyed his time there.
    You mentioned that you're now able to visit the people who 
are being held. Can you speak to the fact as to how you 
perceive, or your staff perceives, the people who are being 
held and how they're being treated? Is their physical condition 
good?
    Mr. Cohen. The reports that I've seen indicate that their 
physical condition is acceptable. Again, I don't have Privacy 
Act waivers for most of them----
    Mr. Burgess. Sure.
    Mr. Cohen.----so I can't get into the specifics. But the 
concern is with detention, not so much the conditions of the 
detention.
    Mr. Burgess. I understand.
    Mr. Cohen. There have been some instances where people were 
detained in overcrowded facilities. In some cases they were 
able to get moved to less-crowded facilities. So there have 
been some improvements, and I want to acknowledge the 
cooperation of the Turkish authorities in that regard as well.
    Mr. Burgess. And in response to Mr. Hultgren's question, 
you gave an answer of less than a dozen United States citizens 
are being held. Does that include dual nationals in that 
number?
    Mr. Cohen. Yes, sir.
    Mr. Burgess. OK.
    Just to give context for people who may be watching and 
unfamiliar with the situation, how is the crackdown that's 
occurred in Turkey, how is that affecting the average Turkish 
citizen? How are they dealing with that?
    Mr. Cohen. I think it's hard to speak about the average 
Turkish citizen. What I can say is that it has a chilling 
effect on public discussion about politics, certainly. It has 
had a chilling effect on the freedom of media, free expression, 
civil society organizations, all the points that were mentioned 
in the opening remarks by the members of the Commission. It's 
palpable when you're in Turkey. You can feel that the nature of 
public debate has been narrowed.
    Mr. Burgess. Very diplomatically put. What--and, again, 
forgive my lack of depth of knowledge of this--this state of 
emergency, is that in place at the order of the Turkish 
President, or is that the Turkish Parliament? Who has actually 
enacted that state of emergency?
    Mr. Cohen. If you'll bear with me, I have a little fact 
sheet that I can go through.
    Mr. Burgess. OK.
    Mr. Cohen. The government decrees issued under the state of 
emergency restrict suspects' access to legal assistance, allow 
suspects to be held without charge for up to a month and, in 
some cases, froze the assets of suspended or fired civil 
servants and their family members. Human rights groups 
documented some cases in which family members were held or 
subjected to restrictions on their freedom of movement in lieu 
of suspects who remained at large.
    Under the state of emergency, detainees could be held 
without charge for up to 30 days, but there were numerous 
accounts of people waiting beyond the 30-day mark to be 
formally charged. Bar associations reported that detainees had 
difficulty gaining access to lawyers, both because government 
decrees restricted lawyers' access to detainees in prisons, 
especially those not provided by the state, such as legal aid 
lawyers, and because many lawyers were reluctant to defend 
individuals suspected of ties to the coup attempt.
    A variety of sources reported instances of individuals 
wrongfully detained for ties to the coup based on poison pen 
allegations driven by personal or other rivalries. And the 
state of emergency itself is extended by the Parliament, 
proposed by the government.
    Mr. Burgess. Those restrictions of rights, those were 
applied to your two consular employees who were detained, or 
still are detained?
    Mr. Cohen. I don't have the detailed information on that, 
but to the best of my knowledge they both have had access to 
their legal counsel. Hamza Ulucay is actually on trial. So his 
case has been brought to court on several occasions. I believe 
his next hearing is in December. So he has been formally 
charged. I'm not sure if Metin Topuz has been formally charged 
yet or not.
    Mr. Burgess. But still held?
    Mr. Cohen. Yes, still held.
    Mr. Burgess. That 30-day requirement has long since passed. 
So under what authority has that been extended?
    Mr. Cohen. Well, Metin was arrested on October 5th. So 
we're still relatively close to the one-month mark. And I can 
get back to you on whether or not the charges have been 
formalized.
    Mr. Burgess. And just, if you can--you may not be able to 
do this, but for those two consular employees, you mentioned 
assets have been frozen. Did that apply to our two consular 
employees?
    Mr. Cohen. I am not aware of that.
    Mr. Burgess. All right. Thank you.
    I realize this is asking for an editorial opinion. You may 
not be able or at liberty to give it. But what would have to 
happen for the Turkish Parliament to decide that it's no longer 
necessary to impose these restrictions?
    Mr. Cohen. When I asked this of Turks--and I'll rely on 
what Turkish contacts have told me--they say given the breadth 
of the conspiracy that was perceived to be behind the coup, 
they believe they have more work yet to do before they end the 
state of emergency. And they cannot point to a time on the 
calendar when they believe that will be accomplished. To our 
mind, the number of people that have been swept up in the 
counter-coup is such, and the amount of time that has passed is 
such, that it looks to us like the state of emergency has 
exceeded its reasonable limits.
    Mr. Burgess. Have they--and, again, forgive me for asking 
something that may be just absolutely obvious--but have they 
identified the one, two, or three critical points that they 
need to see altered, changed?
    Mr. Cohen. I think that's a question you'd have to address 
to the Turks.
    Mr. Burgess. OK.
    Mr. Cohen. Sorry.
    Mr. Burgess. Thank you, Mr. Chairman. I'll gladly yield 
back to you.
    Mr. Tillis. Thank you, Congressman.
    Mr. Cohen, to what extent is there any evidence to support 
the Turkish administration's position that there were those in 
the military associated with the Gulen movement that were 
responsible for the coup?
    Mr. Cohen. The military participation in the coup is the 
most clear cut. It is indisputable that Turkish military 
officers used Turkish military hardware against state 
institutions and facilities on July 15th, 2016. So that's not 
an issue of dispute. What gets into a less clear category is 
who they were working with. And that is, I think, what is 
behind the scope of the purchase that we've seen.
    Mr. Tillis. I am interested in the current state of the 
rule of law, particularly in light of the April 17th 
constitutional referendum. Can you tell me a little bit about 
what the current state of the rule of law is in Turkey?
    Mr. Cohen. Well, the April 17th referendum was to make 
changes to the constitution that transferred the state system 
from a prime ministerial, parliamentary-based system to a 
presidential system, putting more power in the executive. Those 
changes don't go into effect until 2019. So it's too early yet 
to be able to say how that will impact day-to-day life in 
Turkey. But I can refer you to the Venice Commission report, 
which suggests that Turkey will be losing a number of checks 
and balances in its system by implementing these changes.
    Mr. Tillis. To what extent do we really understand the mood 
of the Turkish people with respect to these changes, the 
current situation and future situation with these 
constitutional changes. Do we do any polling to get some idea 
of what the Turkish people think about this new change in 
leadership?
    Mr. Cohen. Yes, we do, as well as some very well-known 
American institutions, like IRI, which is out there doing 
excellent work in Turkey. But the best indicator, I think, is 
the result of the referendum itself. It passed by the thinnest 
possible majority, sort of 51 percent, which suggests that some 
49 percent of the Turkish public has misgivings about the 
changes.
    Mr. Tillis. Can you tell me a little bit about the charges 
against Mr. Brunson and Mr. Golge? And in your own opinion, the 
reasons for their detainment and the charges brought against 
them, and shed light on your own view, or the view of the 
department, about the veracity of the charges?
    Mr. Cohen. Well, as I said in my testimony, the charges 
against Pastor Brunson include gathering state secrets for 
espionage, attempting to overthrow the Turkish Parliament and 
government, and attempting to change the constitutional order. 
We do not believe there's any merit to any of these charges. We 
believe Pastor Brunson is an innocent, wrongly accused.
    Mr. Tillis. And on Mr. Golge?
    Mr. Cohen. We don't have a Privacy Act waiver for Mr. 
Golge, so I can't comment on his case. But we also have not 
seen any indication that he's guilty of any criminal 
wrongdoing.
    Mr. Tillis. We have several questions that I want to submit 
for the record, but we'll move to the next panel in a moment. I 
have spent nine days in Turkey. I was there briefly for two 
days last year, but was focused on the refugee camps. But about 
2011, I was there for about nine days and it was a very 
different Turkey. While the United States and several other 
countries were going through a serious downturn in the economy, 
there was just huge optimism in this country. We met with 
chambers of commerce. We met with a lot of Turkish families, 
spent time with Turkish families. That's when I learned you 
never tell somebody their food looks good, because you'll be 
eating most of what's on their plate. They're very good people. 
They were very optimistic. How would you view the mood of the 
Turkish people today?
    Mr. Cohen. It's more tentative. As I mentioned in my 
remarks, Turkey suffered a national trauma. And the sense of 
that trauma permeates every aspect of society and it remains 
palpable today, or after the coup attempt. That said, the 
economy continues to grow at something like 5 percent, which is 
an enviable growth rate. And the Turkish economy continues to 
have great potential, including for American business. And I 
would reference the prospective deal between Boeing and Turkish 
Airways to sell some 40 Dreamliners, which is a deal worth over 
$10 billion that would employ 25,000 Americans. So there's a 
lot still to be accomplished in our bilateral economic 
relationship. And the Turkish people will benefit from 
continued economic growth, provided that it continues on the 
path it's on.
    Mr. Tillis. After that visit I hosted a delegation from 
Kayseri. I was in Izmir, Ankara, Kayseri and Istanbul. And my 
last city was Kayseri. And I spent a day with the mayor there, 
and other members of Parliament who came back to visit me in my 
then-capacity as Speaker of the House in North Carolina. And we 
were all optimistic about building great business 
relationships. I think the sooner we get past these sorts of 
things--which do not make me inclined to do anything with 
Turkey at this point in time--then we can get on to building 
those great relationships that I think would be mutually 
beneficial.
    The last thing you mentioned about, in traveling to Turkey, 
meeting with officials there--one question that I had is, we 
met with several members of Parliament when we were in Ankara. 
Are there any members of Parliament who are openly sympathetic 
to our desire to have these people, who we think were 
inappropriately detained, released?
    Mr. Cohen. I suspect there are. I haven't had any 
conversations since these arrests took place with any members 
of Parliament which led to this line of conversation. But it's 
an excellent question. I'll ask my colleagues in Ankara to see 
if we can find out.
    Mr. Tillis. I would like to do that. We had a very good 
discussion with several members that were there. And I would 
like to know that. Also, I'd like to know, if some of us were 
to travel to Turkey, would we be allowed to meet with the 
detainees?
    Mr. Cohen. I hope so. That would be up to the Turkish legal 
authorities. But we have facilitated Turkish official visitors 
here having access to people that are incarcerated in the U.S. 
So it's certainly something for which we would advocate.
    Mr. Tillis. Well, we'll work with your office, because I 
have an interest in going there. And I would have an interest 
in seeking the opportunity to meet with the detainees and to 
also identify any members of Parliament that we may be able to 
meet with to really build a case for doing what I think is the 
just and right thing.
    Mr. Cohen, thank you for being here. We've got a number of 
questions that the staff have prepared that I think would be 
very helpful and instructive to the Commission in terms of our 
path forward. So we'll submit them to you and would appreciate 
your response. Thank you.
    I should have said this to begin with, thank you for your 
very long service to the country. And thank you for the very 
enlightening testimony.
    Mr. Cohen. Thank you, Senator.
    And thank you, Commission.
    Mr. Tillis. We will take a brief pause and transition to 
the next panel.

    [Recess.]

    Mr. Tillis. Our second panel consists of three superb 
witnesses.
    First, we'll hear from CeCe Heil, Pastor Brunson's U.S. 
attorney. Ms. Heil is executive senior counsel for the American 
Center for Law and Justice, specializing in public policy and 
global legal matters, including the United Nations. She manages 
the ACLJ's global partners and heads a team of lawyers handling 
cases in defense of life, protection of U.S. national security 
interests, and dealing with Islamic extremism.
    Then we'll hear from Jacqueline Furnari, Pastor Brunson's 
daughter. Ms. Furnari is the 19-year-old daughter of Andrew 
Brunson. She has two brothers, Jordan and Blaise. She's 
currently earning her bachelor of science and business 
administration from the Kenan-Flagler Business School at the 
University of North Carolina at Chapel Hill. She expects to 
graduate in December 2017, with a concentration in 
entrepreneurship and operations management. Jacqueline was 
raised in Izmir, Turkey, where her father served as pastor of 
the Izmir Resurrection Church. In February Jacqueline married a 
Blackhawk pilot in the U.S. Army--which is why I'm convinced 
you're going to end up living in North Carolina after he 
retires from distinguished service, Jacqueline.
    Finally, we're going to hear from Nate Schenkkan. A long-
time Turkey expert who serves as project director for the 
Nations in Transit, Freedom House's annual survey of democratic 
governance in Central Europe and Eurasia. He previously served 
as senior program officer for Freedom House's Eurasia programs, 
covering Turkey and Central Asia. He was a lead researcher and 
co-author of two Freedom House special reports, including ``The 
Struggle for Turkey's Internet,'' and ``Democracy in Crisis: 
Corruption, Media and Power in Turkey.''
    Ms. Heil, we'll recognize you first for your testimony.

 MS. CECE HEIL, EXECUTIVE COUNSEL. AMERICAN CENTER FOR LAW AND 
                            JUSTICE

    Ms. Heil. Thank you, Senator Tillis, Representative 
Burgess, for inviting me to speak before you today to discuss 
the case of our client, Andrew Craig Brunson, who's a United 
States citizen from North Carolina who is wrongfully imprisoned 
in Turkey. Pastor Brunson has lived peacefully in Turkey for 23 
years, serving as the pastor of the Izmir Resurrection Church, 
and raising his family with no incident. But after the failed 
coup attempt in July of 2016, President Erdogan started 
arresting anyone he deemed a threat, which included Christians. 
So on October 7th, 2016, Pastor Brunson was arrested as a 
threat to national security and detained, pending deportation.
    However, Pastor Brunson was never deported. He still sits 
in a prison cell today, wondering if he's been forgotten, as 
today marks the 404th day of his detention. And as unbelievable 
as that may seem, given the current state of emergency and the 
subsequent emergency decrees from Turkey, all protections 
afforded in the Turkey constitution and with international 
declarations and covenants to which Turkey is a member, 
including the OSCE, all of those protections just disappear. 
And as a result of the rapidly diminishing state of law in 
Turkey, Pastor Brunson's file has been sealed, all of his 
visits from his attorney are recorded, and he can literally be 
held for up to seven years without ever being formal charged, 
completely destroying any ability to prepare an adequate 
defense, and obliterating all rights to due process.
    So Pastor Brunson has remained languishing in a prison cell 
with literally no end in sight. And while Pastor Brunson has 
been in prison, he has lost over 50 pounds, he has lost 
precious time with his family that can never be replaced. And, 
worst of all, he has lost all hope, wondering why Turkey, a 
NATO ally and a country that he has loved and served for over 
two decades, has been able to hold held him hostage, an 
innocent United States citizen, for over a year.
    Pastor Brunson's plight has caught the attention of 
hundreds of thousands of people across the world, and there's 
been an unprecedented amount of demands for his release from 
the highest level. As we've heard, President Trump has 
repeatedly demanded his release. Vice President Pence has 
repeated demanded his release. And Secretary Tillerson has 
demanded his release. And actually, most of you on this panel 
signed a bipartisan, bicameral letter that was sent to 
President Erdogan, demanding his release.
    And yet, on August 24, Turkey responds by levying 
additional ridiculous accusations against Pastor Brunson, these 
just as ludicrous as and disconcerting as the original. And 
still, not one piece of evidence has been presented to support 
any of the accusations against this innocent pastor. Pastor 
Brunson maintains his innocence and denies all the accusations, 
and reiterates that he has been in Turkey for the past 23 years 
for one purpose, and one purpose only, and that was to tell 
about Jesus Christ. So the question remains, why are they still 
holding him?
    And perhaps President Erdogan has given us the answer to 
that question in his recent demands for a swap of Pastor 
Brunson for either Fethullah Gulen or Reza Zarrab. So Pastor 
Brunson has literally become a bargaining chip for Turkey, 
proving that he is not a criminal to be prosecuted or convicted 
but a political hostage that Erdogan wants to trade. Turkey is 
our NATO ally, and we should be able to say, give us our 
American, and they should give us our American. So we are 
asking you today to demand that Turkey give us our innocent 
American.
    Thank you.
    Mr. Tillis. Thank you, Ms. Heil.
    Jacqueline.

       MS. JACQUELINE FURNARI, DAUGHTER OF ANDREW BRUNSON

    Ms. Furnari. Thank you for the opportunity to testify on 
behalf of my father.
    Having grown up in Turkey, it has been so hard for me to 
understand the current state of events. My parents moved to 
Turkey in 1993, so that's where my brothers and I grew up. In 
fact, my brothers were raised there--they were born there. We 
even went to Turkish grade school because my parents wanted us 
to learn the language and feel comfortable in the culture. To 
me, it was home. My family, school, and friends were in Turkey. 
I grew up in the mix of Turkish and American culture, and loved 
seeing the beauty in both. On holidays, we sometimes hung a 
Turkish flag from our balcony, as our neighbors did. We loved 
and respected the Turkish people, and my parents were dedicated 
to serving them for as long as they could. My brothers and I 
used to joke that we would have to bring our future children to 
Turkey to see their grandparents.
    As I grew up, I saw how my father poured himself into his 
work, and how willing he was to sacrifice his needs and wants 
for the sake of others. He believed--as I do--in a greater 
purpose in life, and actively lived out his life with the 
purpose of showing people the love and grace of God. He taught 
this message in the home, too. My parents' continued commitment 
to serving God and the people of Turkey was such a wonderful 
example for my brothers and me to see. We were truly blessed to 
be raised by such faithful parents.
    I know my dad and his character as only a daughter can, and 
I know the charges against him are absurd. My father is not an 
armed terrorist trying to overthrow any government, my dad is a 
pastor who went to Wheaton College, then on to seminary, and 
got a Ph.D. in New Testament. He has selflessly served Turkey 
for 24 years now. Everything in his life is centered on his 
faith. For my family, who has loved, served, and prayed for 
Turkey and its people, seeing these absurd charges brought 
against my father has been an extremely painful experience. The 
past year of our lives has been filled with uncertainty, worry, 
tears, and countless unanswered questions.
    My family kept assuming this situation would end soon. But 
it kept dragging on, month after month. My brothers and I 
didn't get to spend Christmas with my mom, because she was 
scared of what might happen to us if we flew into Turkey. I 
missed a last Christmas as a single woman with my family. I was 
about to transition into a different phase of life, and I 
wanted that one last family Christmas before things changed. In 
February I got married. We didn't want to get married without 
my parents present, but because my husband is in the military 
we could not postpone it. We had received my dad's blessing, 
but we felt so terrible about getting married while he was 
imprisoned. Neither of my parents were there, and I will never 
get that moment back.
    For those of you who are fathers to daughters, I'm sure you 
would want to walk your daughter down the aisle. My father 
didn't get that. My husband and I decided to have a civil 
ceremony and to postpone our wedding until my father is home. 
I'm still waiting for my wedding. I'm still waiting to wear the 
wedding dress that I got almost a year and half ago. I'm still 
waiting for my dad to walk me down the aisle. And I'm still 
waiting for that father-daughter dance.
    I'm graduating from college in December. My dad doesn't 
want to miss seeing graduate. He invested a lot in helping me 
find a career path. However, unless a miracle happens, I will 
be achieving yet another life milestone without my parents. In 
his letters, my father says that the hardest part of his 
imprisonment is missing out on being with his family. That is 
what he most wants. He has missed his only daughter getting 
married, and might miss my college graduation. He has missed 
helping my older brother make career choices and witnessing his 
accomplishments at Cornell. He has missed being with my younger 
brother who has so badly needed his dad and mom in the last 
year. These are the things that pain my dad the most, not being 
able to be with us.
    In August, I took a risk and flew to Turkey to visit my dad 
and support my mom. I never really processed that visit because 
it makes me too emotional. I will never forget any moment of 
the day we got to visit. I remember hearing my dad's voice for 
the first time in a year as they brought him into the room. I 
remember how broken, tired, and desperate he sounded as he 
tried to fight to meet in a room where he could hug and hold us 
for the only hour he would have seen us the whole year. We 
sobbed the entire visit. It was hard to fit words in because 
the emotions were too strong and only led to more tears. It was 
difficult to see my dad so broken, so thin, and so desperate. 
He hated having his kids see him that way.
    During my summer visit, he was already talking about how 
fearful he was at facing the cold winter in that poorly 
insulated prison. That he was already concerned about the 
winter in the middle of August shows how hopeless he was. And 
now, the cold that he feared so much has started. Seeing him in 
that much pain broke me. He's been changed by this experience. 
My whole family has been changed. In a recent visit with my 
mother, my father said: I plead with the Lord to release me by 
Christmas so I can be with our son in his last year in high 
school and at our daughter's graduation before she moves to 
Germany. But if I'm still here at Christmas, I'll thank God for 
sending Jesus to be born. If I'm still here at New Year, I'll 
thank him for helping me make it through this year. If I'm here 
on my birthday I'll give thanks for the life I've lived.
    My father is now dealing with anxiety and depression, but 
he is handling his situation better than he was before. But we 
still want so desperately for him not to have to face another 
Christmas imprisoned. We want him to be home again, with his 
family. My family has suffered greatly because of these absurd 
and false charges. Please, make any and all efforts to secure 
my dad's release and bring him home for Christmas. He's been 
imprisoned falsely for far too long.
    Mr. Tillis. Thank you, Ms. Furnari.
    Mr. Schenkkan.

MR. NATE SCHENKKAN, DIRECTOR OF THE NATIONS IN TRANSIT PROJECT, 
                         FREEDOM HOUSE

    Mr. Schenkkan. Thank you. Senator Tillis, members of the 
Commission, it's an honor to testify before you today. I'm 
going to focus in my spoken testimony on some of the 
developments in rule of law since the coup attempt. I know 
we've covered some of this ground already. But I think, if 
anything, we may be understating how severe the crisis is in 
Turkey.
    And I think that affects how we look ahead in the U.S.-
Turkish relationship, and how it needs to be approached. My 
written testimony contains some more context about the state of 
rule of law in Turkey prior to the coup attempt. So I ask that 
you refer to that with questions on the matter.
    Under the emergency rule for the last 16 months, some 
150,000 people have passed through police custody on the basis 
of terrorist offenses, membership of armed groups, or 
involvement in the attempted coup. Of these, at least 62,000 
have been arrested. One hundred and fifty-three journalists are 
in prison. More than 111,000 people have been fired from public 
service, which also means that they are placed on a blacklist, 
which largely prevents them from finding private employment.
    The state has also closed and seized institutions around 
the country: 1,412 associations, 15 universities run by 
foundations, 162 media outlets, 2,271 private educational 
institutions, and 19 unions, 969 companies valued at roughly 
$11 billion have been seized, 94 mayors have been removed from 
office and replaced by appointed trustees, 10 members of 
Parliament are in prison, two members of the Constitutional 
Court were removed from office and arrested, along with 37 
personnel of the Constitutional court, 4,240 judges and 
prosecutors have been dismissed, 28 lawyers' associations or 
law societies have been closed, at least 550 lawyers have been 
arrested, and 1,400 lawyers are facing criminal prosecution.
    As has been discussed, these emergency decrees under the 
state of emergency reduced very important protections for those 
accused or under investigation for crimes related to the coup 
attempt or membership of terrorist groups. These have led to 
increasing, and increasingly credible, reports of torture and 
forced disappearances in detention, which was a problem 
considered largely eradicated prior to the coup attempt in 
Turkey.
    Regarding the constitutional referendum and the changes, I 
must respectfully disagree, slightly, with DAS Cohen regarding 
the effect on rule of law. Yes, the changes do not go into 
effect until 2019, but it is clear what that effect will be. 
The referendum changes increase the president's control over 
the judiciary. The president will have the power to appoint six 
out of the 13 members of the Council of Judges and Prosecutors, 
which controls the appointments of the judiciary. The remaining 
appointments will be made by the Parliament which is currently, 
of course, under majority control of the president's party. The 
oversight role of the Constitutional Court has been downgraded, 
as has that of the Council of State. In addition, of course, in 
this shift to a presidential system, the prime ministership is 
eliminated as an office and the president gains the power to 
appoint ministers.
    It's within this context and the ordeals of Pastor Brunson, 
America's foreign service nationals, and tens of thousands of 
Turkish citizens, including leaders of civil society like Osman 
Kavala, that we need to understand this context of 
deteriorating rule of law. The executive branch in Turkey is 
constrained at this point neither by the balance of powers nor 
by the rights of individuals when it chooses to use politicized 
justice to achieve its political ends.
    There will be three major elections in 2019 in Turkey. 
There will be nationwide local elections in March, 
parliamentary and presidential elections currently scheduled 
simultaneously for November. Each of these will be extremely 
important for President Erdogan's goal of remaining in power 
and of retaining or, even better, strengthening his control 
over the levers of the state. We should not expect an 
improvement in the rule of law prior to the elections. It's not 
in President Erdogan's interest, and it's not in the AKP's 
interest to have the system work more fairly or more justly at 
this time. Nor should we expect an improvement after the 
elections, unfortunately. If President Erdogan and the AKP win, 
they will continue their effort to consolidate a paternal 
regime. If they lose even one election, they will have to 
tighten the screws in order to maintain power. This is what 
happened after the AKP lost its majority in Parliament in the 
June 2015 general election. So this problem of rule of law in 
Turkey is one that will be with us for a long time.
    So let me say in that light a few words about United States 
policy towards Turkey in this area, regarding rule of law. The 
biggest problem is, first, that we treat it as something that 
we believe can be solved soon, or solved quickly. Of course, 
the first priority is returning U.S. citizens and protecting 
American employees, foreign service nationals, from 
persecution. But we need to recognize, no matter what the 
outcome is of these cases, this is a durable problem that will 
be with us. We need to recognize that the use of anti-
Americanism and anti-Westernism by President Erdogan and other 
political leaders in Turkey is driven by a domestic political 
dynamic. And nothing that the United States does is going to 
change that.
    Instead of starting from a position of seeking to solve the 
problem of Turkey's political leaders taking anti-Western 
stances for their political gain, we need to define clearly 
first, for ourselves, what the United States core interests and 
values are in our relationship with Turkey, and then articulate 
policies to achieve those interests and values, including 
taking measures with Turkey to enforce them if they're 
threatened and violated. And I think there's been a lot of 
progress on this in the last year.
    We also, though, need to keep an eye on the medium and the 
long term in Turkey, and what we want to see in Turkey. I 
believe the United States has a long-term, strategic interest 
in Turkey being a stable state, based on the rule of law, in 
which political and ethnic minorities enjoy fundamental rights, 
including the ability to participate fully in political 
processes. The United States cannot make Turkey into such a 
state. But this should be a key pillar for any U.S. strategic 
vision for the Middle East, and one that can be supported 
through measures taken now.
    Some of those measures would include, first, using new 
instruments, including the Global Magnitsky Act, to sanction 
Turkish officials responsible for grave human rights 
violations. And of course, the congressional role in collecting 
those cases and forwarding them to the State Department can be 
very important. Second, I believe Congress should mandate 
funding for human rights defenders, civil society activists, 
and journalists in Turkey. Congress should create a special 
fund for those who support the country's future as a 
democratic, rule-of-law state.
    Third--and this is where I think most of the progress has 
been in the last year--the United States can make clear that 
the rule of law in the United States and the rights of American 
citizens and employees of the U.S. Government are non-
negotiable in the relationship with Turkey. If Turkish 
officials flout U.S. law, they will face criminal prosecution. 
We've seen this already, I think, in the Reza Zarrab case, 
which is one of the reasons why it's so important, beyond its 
implications, of course, as simply enforcing U.S. laws. The Van 
Hollen amendment is also an important step in this direction, 
reinforcing the importance of United States laws by 
underscoring that violations of our laws will affect U.S. 
support and cooperation with Turkey.
    We also have to do the same regarding American employees 
and American citizens overseas. If the U.S. concludes that the 
detention of an American citizen is not based on a legitimate, 
criminal accusation, it should sanction officials responsible 
for their detention. And this is why I support the Lankford-
Shaheen amendment, and why Freedom House supports it. The U.S. 
must also stress that attacks on U.S. employees, including the 
offensive conspiracy theory regarding Henri Barkey and the 
imprisonment of foreign service nationals, will also result in 
the continuation of visa restrictions or other punitive 
measures, as needed. And I think Congress should be prepared to 
request sanctions against individual officials responsible for 
illegitimate detentions of U.S. employees.
    There are no magic bullets for improving the U.S.-Turkey 
relationship. There are diverging values between these two 
allies. We should prepare for a very rocky short-term 
relationship and take necessary measures to guard the U.S.'s 
core interest and lay the groundwork for future improvements. 
It's my hope that the United States will stand with the many 
Turkish citizens working for democracy and rule of law in 
Turkey, and that circumstances will one day to improve to allow 
the bilateral relationship to return to a less tense basis.
    Thank you.
    Mr. Tillis. Congressman Burgess, would you like to ask any 
questions before----
    Mr. Burgess. I have to leave, but thank you.
    Thank you for your testimony.
    Mr. Tillis. Thank you.
    Senator Shaheen.

 HON. JEANNE SHAHEEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mrs. Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for being here and the work that 
you're doing. And, Ms. Furnari, I'm sorry I pronounced your 
name incorrectly, but no one should have to go through what 
your family has gone through. And I think all of us are in 
sympathy with your situation, and will do everything we can to 
try and address it.
    Mr. Schenkkan, I appreciated the opportunity to work with 
you as we were working on the legislation with Senator Langford 
and on trying to restore some of the funding to address the 
efforts in Turkey around civil society. I wonder, in your 
testimony you said that we should not expect any improvement in 
the next few years. Can you talk about how matters could 
further deteriorate?
    Mr. Schenkkan. I may, yes. What I think we should expect, 
unfortunately, in the short term politically, prior to the 2019 
elections, is an expansion, in fact, of the prosecutions on 
conspiracy theory grounds around the state of emergency. I 
think it was asked in one of the earlier questions at what 
point the Turkish Government would consider their response 
adequate or to be finished regarding the coup attempt. I was in 
Turkey a month after the coup attempt interviewing various 
members of civil society, as well as politicians and others. At 
that time, the most fervent hope, in August 2016, was that the 
investigation of the coup attempt would remain within the 
appropriate framework, and confine itself to the coup attempt.
    It was already clear within two weeks after that, that it 
was beyond that framework. And it has now spilled far, far, far 
beyond that. Unfortunately, under the state of emergency and 
under existing Turkish laws prior to the state of emergency, 
there are virtually no limits to how far a prosecutor, with a 
cooperative judge, may go in persecuting people for normal 
interactions with others. It's a guilty by association system. 
So the allegations currently being pressed against Osman 
Kavala, whose case I mentioned, a very prominent civil society 
leader, that involve Henri Barkey, former State Department 
official--these allegations in and of themselves can expand to 
include hundreds, maybe even thousands of people. 
Unfortunately, we face a very severe conspiracy theory scenario 
in Turkey.
    Mrs. Shaheen. So, given what's happened, can you talk about 
how that's affecting the Turkish economy, and to what extent 
Erdogan is affected by--I don't want to say a downgrade--but a 
worsening economic situation in the country?
    Mr. Schenkkan. Yes. The economy is built on fragile ground. 
The Turkish economy had previously been orienting itself more 
and more towards an export-led approach, driven especially by 
cultivating new markets in the Middle East, in the Balkans, in 
Europe. Strained relations with Europe--that, again, President 
Erdogan has cultivated for his own domestic political reasons--
have begun to affect economic relations and investments coming 
from Europe. The strained relations with Russia that Turkey had 
previously engaged in--although now there's been a detente--had 
also contributed to undermining some of the bases for economic 
development.
    So while DAS Cohen mentioned the very strong growth rate 
that Turkey currently posts, that's possibly based on some 
meddling with the numbers, according to economists. They 
changed how they calculate GDP recently. It also ignores the 
very high inflation right now in Turkey, which is well over 10 
percent, and may be quite higher when we talk about food 
products which, of course, is the most important for the 
largest part of the population. So economic issues are very 
important for President Erdogan. He's looking for ways prior to 
the 2019 election cycle to make sure that the average Turk, or 
at least his core base, feels that the economy is working for 
them. That requires some short term measures--as it has over 
the past several years--that may not be best for the long term.
    Mrs. Shaheen. Thank you. I see my time is up.
    Mr. Tillis. If you have other questions, you're welcome 
to----
    Mrs. Shaheen. No, go ahead.
    Mr. Tillis. I've been deferring to everybody to make sure 
you had an opportunity. Thank you for attending.
    Ms. Furnari, you spent so much time in Izmir, right? How 
big is the congregation?
    Ms. Furnari. The church congregation? The size varies. 
Depends on the week, depends on the year, honestly. I would 
say, to the best of my knowledge, around 50 people. Some weeks 
lower, some weeks higher.
    Mr. Tillis. And in your time there, do you recall any time 
where you felt like you were being harassed or targeted by 
Turkish authorities, or your parents? Before the events that 
led to your father's detainment?
    Ms. Furnari. I would say there wasn't a feeling of that 
from Turkish authorities. But I think about six or seven years 
ago there was an attempt on my father's life by a gunman that 
came to the church. So I did have that sense of some risk and 
some fear and concern for my parents.
    Mr. Tillis. And Mr. Cohen testified that from the State 
Department's perspective, the conditions of your father's 
detainment were adequate. And then Ms. Heil and you both 
testified that he's lost 50 pounds in the 404 days that he's 
been in confinement. How do you reconcile adequate facilities 
with that outcome? And Ms. Heil, either you or Ms. Furnari. It 
sounds like the conditions are not the least bit acceptable.
    Ms. Heil. I would say the other situation that Mr. Cohen 
also referenced was being kept in a cell that was overcrowded--
well, that was Pastor Brunson as well, because during a time of 
his detention he was kept in a cell that was built for 8, but 
had 22 prisoners in it. And of course, he's the only Christian. 
So, being kept up all hours of the night, not being able to 
walk outside, just the stress of not being able to sleep. And, 
again, being the only Christian--just the verbal abuse and the 
stress of missing his family have just led him to losing weight 
and being beside himself, with no end in sight.
    Mr. Tillis. Ms. Furnari, are you able to communicate with 
him, either through written correspondence or through the 
telephone?
    Ms. Furnari. Yes, I have been able to send him letters. 
Every once in a while, I get one from him. It's been very 
difficult for him to bring himself to write, though, because it 
reminds him of what he's missing out on.
    Mr. Tillis. Ms. Heil, it almost seems to me that maybe from 
the beginning of his apprehension that they viewed him as 
possible trade bait for someone here in the United States. Do 
you see anything that any reasonable person--have you seen any 
evidence that would substantiate any of their reasons for 
detainment that in a U.S. court would hold water at any level?
    Ms. Heil. No. In fact, his file has been sealed under the 
state of emergency, so no one has seen any evidence. So we have 
no idea. We have heard that there is a secret witness, but 
that's all. And every chance we've had, we've tried to demand 
concrete evidence. But no one has seen any evidence. And he has 
not been charged with any crime. He's still simply a suspect 
being detained.
    Mr. Tillis. Doesn't it defy logic that if the Turkish 
Government and Erdogan had a compelling case against Mr. 
Brunson that they would want to put that forth to really 
communicate more effectively their basis for the illegal 
detainment?
    Ms. Heil. Certainly. If they had evidence to support their 
accusations of the crimes, you would think that they would go 
ahead and charge him and let the case proceed. But they have 
not.
    Mr. Tillis. Mr. Schenkkan, the referendum back in April of 
2017--how have international observers judged the legitimacy of 
that referendum?
    Mr. Schenkkan. The OSCE had a long-term observation mission 
in Turkey, as well as short-term observers, a full team. And 
their appraisal was very negative, in the measured terms, of 
course, that the OSCE monitors, ODIHR, typically uses.
    Mr. Tillis. Yes, so you've got a referendum that passed by 
the slimmest of margins, and then questions about the 
legitimacy of the referendum to begin with. Is that fair to 
characterize it that way?
    Mr. Schenkkan. It's very fair.
    Mr. Tillis. You mentioned something, I want you to go back 
to it--I can't remember your precise words, but you were 
talking about the seizure of certain businesses that equated to 
the billions. Can you tell me a little bit about those 
businesses and why they would have necessarily been targeted?
    Mr. Schenkkan. Of course. The Turkish Government's position 
is that the Fethullah Gulen organization, which they call 
FETO--which is not a name that the network uses for itself, but 
was provided by the Turkish Government in the last three 
years--included large business interests. And so businesses and 
businesses owned by affiliated businessmen were seized and 
handed over to the treasury, and they will be gradually 
auctioned off, again, in a process that is starting now.
    In those auctions in the last 10 years, we have many 
examples of this auction process taking place when companies go 
into bankruptcy or are otherwise passed over into state hands. 
These auction processes are very frequently, if not 
universally, manipulated to ensure that especially strategic 
interests in areas like media wind up in the hands of parties 
friendly to President Erdogan and to his government.
    Mr. Tillis. When I was in Turkey for that extended period a 
few years ago, I had the opportunity to meet with the 
ecumenical patriarch, Bartholomew. And interestingly enough, at 
that time he was pretty optimistic that things were getting 
better. What's the state of Christians in Turkey today?
    Mr. Schenkkan. Well, I would have to say, first of all, 
that like we say in freedom of the press issues, the death of 
one journalist or the imprisonment of one journalist has a very 
severe chilling effect. The imprisonment of one pastor has an 
extremely severe chilling effect throughout a whole community.
    Of course, the Orthodox and the Armenian communities in 
Turkey have special legal constitutional protections under the 
Lausanne Treaty, and in that sense also have a different 
relationship with the authorities than do Protestant Christians 
in Turkey. I think the main factor undergirding what's 
happened--which is affecting all Christian communities, 
including the official protected ones--is a very hard 
nationalist turn of the last three years; that has President 
Erdogan embarking on a very anti-Western and very Turkish 
nationalist course in order to consolidate a different 
political coalition than the one that had backed him in the 
2000s. He increasingly needs to marginalize and to push out 
ethnic minorities and religious minorities. And so the hate 
speech against them has certainly increased.
    Mr. Tillis. How much of Erdogan's behavior, do you think, 
is rooted in his own belief of where he wants Turkey to go, 
versus just reading the political tea leaves and trying to 
maintain some order within the nation?
    Mr. Schenkkan. It's one of the top questions among anyone 
interested in Turkey. I think it is principally about the 
political moment first and second about where he wants to go, 
because where he wants to go falls within a very wide spectrum, 
but where he wants to be when Turkey gets there--which is at 
the very top--is always the same. And so Turkey can get to a 
lot of different places with President Erdogan at the top, and 
I think he's been maneuvering back and forth along different 
options as the political dynamics and the geopolitical dynamics 
change around him.
    Mr. Tillis. I did also want to ask you just briefly, you 
mentioned an amendment by Senator Van Hollen, I believe, and 
you also mentioned the effort on the part of Senators Shaheen 
and Lankford. What more should we be considering, beyond being 
supportive of those measures, as specific actions of Congress?
    Mr. Schenkkan. Correct. Regarding the U.S. employees, 
foreign service nationals, I think we should be considering 
either widening Senator Shaheen's and Senator Lankford's 
amendment to include employees of the United States or adding a 
separate amendment for that purpose, because I think where 
we've arrived now--and it's correct, as DAS Cohen indicated in 
his testimony--that there has been some progress in the past 
couple of months, and in particular since the visa suspension, 
that that got the attention of the Turkish authorities and 
improved access to some detainees. It led to some changes 
regarding the potential detention of a third foreign service 
national.
    That said, it hasn't led to the release of Serkan Golge, of 
Pastor Brunson, or Metin Topuz, Hamza Ulucay. We're still just 
back at the beginning, which is not a good situation. So I 
think that it needs to continue to press forward. I think 
that's one.
    I think, two--and this is more about the medium term and 
the longer term and how, I think, want to see Turkey as a 
stable rule-of-law state that is more inclusive and more 
democratic--there should be funding for civil society, for 
journalists in Turkey. The U.S. Government typically has not 
provided this kind of democracy and governance assistance for 
Turkey, except in very small ways--through the party 
institutes, through the occasional State Department Bureau of 
Democracy, Human Rights, and Labor call. USAID does not do work 
oriented inside of Turkey. There should be consideration for 
whether there should be a special fund or other mechanism for 
those who support a democratic rule-of-law state in Turkey.
    Mr. Tillis. Thank you.
    Senator Shaheen.
    Mrs. Shaheen. First of all, let me go back to the coup. Has 
there been any reliable information released from the Turkish 
Government about who was responsible for the coup, who in the 
United States we believe is objective and factual?
    Mr. Schenkkan. Well, I can't speak for the United States 
Government or how they are perceiving.
    There are multiple trials currently going on of varying 
relationship to the coup attempt. So you have some that are 
very much on the periphery and that prosecutors have claimed 
are connected to the coup attempt, like the case against Pastor 
Brunson or against others, the case against Osman Kavala or 
against the Amnesty International human rights defenders. All 
of these mentioned the coup attempt and implied that these 
people were somehow involved, but there was, obviously, no 
evidence.
    There's another set of cases involving officers, involving 
military figures, as well as some civilians who are around the 
military bases. Those cases are taking place. There is a 
gradual buildup of evidence around what happened.
    A couple of really severe problems with that.
    Mrs. Shaheen. Yes, and I'm really asking not what happened, 
who were the responsible for the events of that period.
    Mr. Schenkkan. Yes.
    Mrs. Shaheen. I'm more asking is there any evidence around 
who was behind initiating that. The military--I haven't seen 
anything that suggests the Gulen network was actually 
responsible, but is there any evidence that's come out that 
would suggest that?
    Mr. Schenkkan. There is evidence that there were members of 
the Gulen movement or network, some in the military and some 
who were civilians, who participated in the coup attempt. What 
their role was, whether they were the exclusive leaders or 
whether they were co-participants along with members of other 
factions in the military, is not yet clear, in my opinion. And 
this is, obviously, hotly, hotly debated right now.
    Mrs. Shaheen. Right.
    Mr. Schenkkan. Second--and I would say this even more 
strongly--there has been no genuine evidence offered of the 
coup attempt being directed from Pennsylvania, which is of 
course the implication, from Fethullah Gulen.
    Mrs. Shaheen. Right.
    Mr. Schenkkan. That evidence continues to be 
circumstantial. It continues to be based on inference and not 
based on something that would stand up, I would say, in a U.S. 
court of law.
    Mrs. Shaheen. And so what has been the impact of the recent 
reports that someone associated with the current 
administration, in the Trump administration, was meeting around 
the potential to extradite or to send Gulen back to Turkey?
    Mr. Schenkkan. Well, I think the biggest impact is that it 
damaged the clear message that the U.S. needs to send and has 
been working to send, that our system of rule of law is 
inviolable. The implication that there could be a side deal 
outside of the normal legal channels for the extradition or 
rendition of an individual who's legally entitled to be 
residing in the United States right now is very damaging. And 
so I think it is very important that--and I think the State 
Department has likely done this--we communicate that this is 
not the way to go about business.
    Mrs. Shaheen. And how much does it undercut that message 
when we have the President embracing Erdogan and not raising 
concerns about human rights issues in Turkey?
    Mr. Schenkkan. I think it's a genuine issue that we want to 
make sure that human rights issues remain at the forefront of 
the agenda with Turkey. And we want them to remain there not 
only because they're our values and because this is what we 
stand for, but because this is in our strategic interest. This 
is an important part of how the United States wants to see 
events develop in the Middle East. Many of the issues that we 
see ourselves grappling with in Syria, in Iraq, as well as in 
the Balkans, have strong ties to the settlement and development 
of a democratic rule-of-law society in Turkey.
    Mrs. Shaheen. Nate, Turkey has played an important role in 
NATO, and they have certainly been helpful in a number of the 
conflicts where NATO has participated. Can you talk about what, 
if anything, NATO might be able to do to address some of the 
rule of law and other issues that are happening in Turkey right 
now?
    Mr. Schenkkan. Certainly, NATO remains principally a 
military alliance. It is a military alliance----
    Mrs. Shaheen. Right.
    Mr. Schenkkan.----and it has military tasks that it 
performs. The integrity of that relationship with Turkey has 
also been threatened by these developments, and that is one of 
the reasons why this is a strategic goal, to create democracy 
and rule of law in Turkey.
    I think the NATO relationship will primarily be of use in 
this regard in that it is a means to communicate with Turkey 
how seriously the United States takes these issues.
    Mrs. Shaheen. And the EU, I assume.
    Mr. Schenkkan. Yes, of course.
    To indicate that the kind of cooperation within NATO that 
Turkey will be involved in, and the level of Turkey's rank 
within NATO and what it has access to and where it falls within 
the hierarchy--because, of course, as such a large alliance, 
there is a hierarchy--that connecting these two will help. And 
I think it can be used in that way. I would not put on the 
table any kind of withdrawal or any kind of exclusion of Turkey 
from NATO, but----
    Mrs. Shaheen. I would agree with that. I don't think that's 
helpful.
    Mr. Schenkkan. Yes. But within the alliance itself, there 
continue to be very differing levels of cooperation. And I 
think making sure that when the United States says we value 
Turkey's strategic alliance and participation in NATO, what is 
understood by that is: and that participation will increase, 
along with improved cooperation on these other measures, rather 
than ``and we will continue to participate no matter what, we 
will continue to offer you the same access no matter what,'' 
would be an improvement.
    Mrs. Shaheen. Finally, I would just say that one of the 
things you point out--and I agree with this--is that we should 
recognize in the United States that Erdogan's anti-Western, 
anti-
Americanism message is about his own interests, and that 
there's nothing that we can do that's going to change that 
tide. I would just qualify that a little bit, because you then 
go on to point out that, based on some of the proactive actions 
that we've taken in the United States, it has changed Turkey's 
behavior. And I would argue that we need to continue to look at 
those proactive ways in which we can change Turkey's behavior, 
and in some cases that means not only with incentives but also, 
as we've done through the Van Hollen amendment, try to provide 
some disincentives for Turkey, some penalties that they have to 
expect in terms of how we deal with them, and that that's very 
important for us to do. And as we look at how we deal with some 
of the people that they've imprisoned, we ought to be thinking 
about what ways we can invoke some of these incentives and 
disincentives to try and influence their behavior in terms of 
releasing those people who are improperly imprisoned.
    Mr. Schenkkan. Absolutely. And I agree with how you 
understood or reframed my point. I think what I was trying to 
get at is we should not react on the basis of rhetoric and we 
should not react on the basis of trying to assuage or placate 
something that the Turkish Government is doing. We should act 
on the basis of these are our interests, these are our values, 
this is what we need to do to enforce them, because there's 
been a shifting and a perception from the Turkish side that 
maybe what were red lines are not red lines anymore. And those 
need to be enforced.
    Mrs. Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tillis. Thank you, Senator Shaheen.
    Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Thank you, Mr. Chairman. I apologize for not 
being here throughout the hearing. We have a little tax bill in 
the Senate Finance Committee that we're bringing up. But I 
wanted to stop by.
    Thanks, Senator Tillis. Thanks, Senator Wicker; Senator 
Shaheen, who is a key member of the Senate Foreign Relations 
Committee as it relates to this issue in Europe.
    Our dilemma is this: Turkey is a very important strategic 
partner of the United States. Its location is critically 
important. It's critically important in regards to our campaign 
against ISIS, and it's a NATO partner. All of the above. But we 
ignore human rights and values at our own peril. If we don't 
package our policies in Turkey based upon respect for human 
rights of the Turkish citizens, it's going to be 
counterproductive to United States national security interests.
    And it's been really challenging. It's been challenging 
under this administration because the Trump administration has 
not been clear at times as to American values. That makes it 
more complicated for us to stand up and say that we will not 
tolerate the mass arrests and the violations of dissent being 
tolerated in their country. So this is not an easy issue for us 
to figure out how we need to proceed.
    But we have direct problems when Turkey is purchasing its 
military arms from Russia, which violates NATO uniformity and 
consistency, and violates our sanction bill with Russia. We've 
got to take action. You can't sit by and let those types of 
activities occur without the United States being strongly 
engaged on that issue.
    I was in Europe this past weekend and had a conversation 
with our German colleagues in regards to Turkey. There is 
concern well beyond the United States on these issues.
    So, Mr. Chairman, I don't have any specific questions for 
the witnesses, but I just really wanted to thank the Helsinki 
Commission for holding this hearing. I think this is extremely 
important. We've got to get this right. We need Turkey. I would 
suggest Turkey needs us. And their sensitivity on certain 
issues is, quite frankly, beyond our understanding. But we do 
stand for universal values, and they need to embrace a more 
open way in which we can have those discussions as partners.
    Thank you.
    Mr. Tillis. Thank you, Senator Cardin.
    Ms. Heil, we've had some questions about what more we can 
do as a matter of policy, and some of the amendments we've 
talked about already. But what more can we do to help you?
    Ms. Heil. As has been mentioned before even when you 
discontinue visa services out of Turkey, if there's any 
opportunity for negotiation, that Pastor Brunson never be 
forgotten as part of those negotiations.
    As far as what will make Turkey respond, I think we would 
defer to the administration and the State Department because 
they have had direct negotiations and talks with Turkey, and 
they would be in a better position to tell you what they think 
would be helpful. But I would urge you to let them know how 
important this issue is to you.
    Mr. Tillis. Mr. Schenkkan, the discussion around the 
challenges that Senator Cardin did a great job of summarizing--
on the one hand, they're an important ally in the fight on 
terror, and they're actually host to tens of thousands of 
refugees who are seeking refuge from the fighting in Syria. But 
the President has publicly asked for the release of the 
detainees. The Secretary of State has. What more should we ask 
of the administration beyond the posture and the public 
positions they've taken?
    Mr. Schenkkan. I think that these issues of detention, 
especially the treatment of American citizens first and 
foremost, can be worked into other aspects of the relationship. 
I think, as my co-
testifier was saying, there are many, many, many interactions 
with the Turkish Government on a daily basis, on a bilateral 
basis at the working level, of course. There are also many more 
medium-level and then high-level interactions. And I think that 
making it clear that this is not a matter of a single public 
statement or two public statements--that this will affect the 
NATO relationship, it will affect the security relationship--is 
an important thing to communicate to Turkey, and to communicate 
how it will affect that relationship going forward.
    One of the things that we're seeing now regarding Turkey 
due to the detention of American citizens, due to the charges 
and conspiracy theories advanced about other Americans, is 
fewer Americans, especially those who would be most interested 
in working with Turkey--whether on a business basis or on a 
foreign policy basis or in other areas--being unwilling to 
travel there. And I think it's important that Turkey understand 
they're going to lose a large generation of people who would 
otherwise be very supportive and would be their allies if this 
continues.
    Mr. Tillis. Thank you.
    Well, thank you all for your testimony. And, Ms. Furnari, I 
look forward to your father being at your ceremony.
    Ms. Furnari. Thank you.
    Mr. Tillis. We're going to hold the record open till the 
end of the week. We will have other members probably submit 
questions for the record. I have some that we'll be submitting 
to seek your input. But certainly, you have an invitation to 
contact my office, with a North Carolinian illegally detained, 
and all of the offices of the members of the Commission, to do 
everything we can to continue to provide support.
    So at this point we will adjourn the hearing. But we will 
leave the record open through the end of the week. If you have 
any other additional information you'd like to submit for the 
record, we welcome you to do that.
    And again, thank you again for your testimony and for being 
here today. Commission's adjourned. [Sounds gavel.]
    [Whereupon, at 11:06 a.m., the hearing ended.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Hon. Thom Tillis

    This hearing of the Helsinki Commission will come to order.
    Good morning and welcome to this Helsinki Commission 
hearing titled ``Prisoners of the Purge: The Victims of 
Turkey's Failing Rule of Law.'' I am honored to be chairing 
this hearing on behalf of Chairman Wicker.
    As of today, an American pastor has spent 404 days in a 
Turkish jail without trial, without access to the evidence 
against him, the subject of a vicious smear campaign in the 
Turkish press, and facing life in prison on fabricated charges 
of being a terrorist and coup-plotter.
    Elsewhere in Turkey, a Turkish-American NASA scientist has 
spent 480 days in prison--much of it in solitary confinement--
on terrorism and espionage charges springing from the baseless 
testimony of a disgruntled relative and a bizarre compilation 
of circumstantial evidence, including a dollar bill seized at 
his parents' home.
    Today also marks 253 days behind bars for a veteran Turkish 
employee of the U.S. Consulate in Adana who stands accused of 
terrorism for doing his job as he has for over 30 years, 
communicating on behalf of the U.S. Government with local 
community contacts.
    These prisoners--Andrew Brunson, Serkan Golge, and Hamza 
Ulucay--are the innocent victims of Turkey's collapsing rule of 
law.
    With every passing day, the injustice of these detentions 
compounds itself. For the Brunson family next week: another 
Thanksgiving apart. For Kubra Golge and her two young kids: 
another day away from their home in Houston. For Hamza, another 
inexplicable punishment for his dedication to the job he loves.
    But the focus of this hearing is not personal--it's 
principle. Just as Andrew, Serkan, and Hamza have been victims 
of Turkey's failing rule of law, there are literally thousands 
more like them behind bars today.
    Since imposing a state of emergency nearly 16 months ago, 
the Turkish Government has detained more than 60,000 people and 
fired or suspended upwards of 100,000 others from their jobs. 
The so-called ``decree laws'' authorizing these punitive 
measures do not establish any evidentiary standard for 
application thereby permitting wide-scale abuse as seen in the 
cases I've highlighted.
    Of course, context matters, and the Turkish Government 
invoked its constitutional state of emergency provisions in the 
wake of the July 2016 coup attempt--an unacceptable and violent 
attack on the constitutional order of a NATO ally--an attack I 
unequivocally condemn. But the question is not whether Turkey 
has the right to pursue justice after such a national trauma--
the question is how it goes about it.
    The Helsinki Commission has called this hearing today to 
get to the bottom of the accumulating injustices under the 
state of emergency. As a participating State of the 
Organization for Security and Cooperation in Europe, Turkey has 
committed itself to upholding certain rule of law standards 
even under extraordinary circumstances. Among these commitments 
is the guarantee of equality before the law.
    However, Turkey's commitment to this principle has been 
called into serious doubt. Just two months ago President 
Erdogan proposed an outrageous swap involving Andrew Brunson--
``a pastor for a pastor'' in his words. If the United States 
would circumvent its rule of law to extradite a free man, 
Erdogan suggested, then Turkey would release a wrongfully 
imprisoned one.
    Let us be clear about what President Erdogan proposed: this 
is not justice--this is ransom.
    The United States should not expect--much less accept--this 
sort of treatment from a NATO ally. The harassment and 
detention of our consulate staffs has also overstepped the 
bounds of diplomatic conduct among partners.
    I was glad to see the State Department in the past month 
impose some real costs for this behavior by suspending non-
immigrant visa services in Turkey.
    While the Department announced last week that it had 
resumed these services on a ``limited basis'' and received 
assurances about the security of our local employees, I hope 
that we are clear with Turkey that we will not accept anything 
short of true and timely justice for our detained consulate 
staff and our citizens behind bars. I also hope that we will 
not tire in advocating for the basic rights and freedoms of the 
thousands of Turks impacted by these sweeping purges: 
academics, mayors, legislators, journalists, and human rights 
defenders among them.
    Let me conclude by saying that it is in the interest of the 
United States to have Turkey as a strong and reliable ally.
    From strengthening NATO to fighting terrorism to resolving 
conflicts in the Middle East, we have important work to do 
together and we will be more successful if we can work as 
partners. The urgency of these tasks underscores the importance 
of resolving distractions and rebuilding the trust we need to 
achieve our common objectives.
    And as always, our partnerships are strongest when they are 
rooted in shared principles.
    We have two excellent panels of witnesses today to examine 
these topics. I will introduce the panels separately but I 
would like to say at the outset that I am especially pleased to 
have with us a State Department witness, Deputy Assistant 
Secretary for European and Eurasian Affairs Jonathan R. Cohen, 
to provide the Administration's perspective on these 
developments, U.S. policy toward Turkey, and the future of the 
bilateral relationship. I am also honored to have on our second 
panel Jacqueline Furnari, Andrew Brunson's daughter, from my 
State of North Carolina.
    Our first panel features Deputy Assistant Secretary Cohen. 
He has been the Deputy Assistant Secretary for European and 
Eurasian Affairs covering Cyprus, Greece and Turkey since 
August 2016. He previously served in Baghdad as Deputy Chief of 
Mission from 2014-2016, in Paris as the Acting Deputy Chief of 
Mission from 2013 to 2014, and as the Minister Counselor for 
Political Affairs from 2011 to 2013.
    Mr. Cohen, thank you for being here. You may proceed with 
your opening statement.

[Second Panel]

    Our second panel consists of three superb witnesses.
    First we will hear from CeCe Heil, Pastor Brunson's U.S. 
attorney. Mrs. Heil is Executive Senior Counsel for the 
American Center for Law and Justice, specializing in public 
policy and global legal matters including the United Nations.
    She manages the ACLJ's global partners and heads a team of 
lawyers handling cases in defense of life, protection of US 
National Security interests and dealing with Islamic extremism. 
Next we will hear from Jacqueline Furnari, Pastor Brunson's 
daughter. Mrs. Furnari is the 19-year-old daughter of Andrew 
Brunson. She has two brothers: Jordan, 22, and Blaise, 16. She 
is currently earning her Bachelor of Science in Business 
Administration from the Kenan-Flagler Business School at the 
University of North Carolina at Chapel Hill. She expects to 
graduate in December 2017 with a concentration in 
Entrepreneurship and Operations Management. Jacqueline was 
raised in Izmir, Turkey, where her father served as pastor of 
the Izmir Resurrection Church. In February, Jacqueline married 
a Blackhawk pilot in the US Army.
    Finally, we will hear from Nate Schenkkan, a longtime 
Turkey expert who serves as Project Director for Nations in 
Transit, Freedom House's annual survey of democratic governance 
in Central Europe and Eurasia. He previously served as Senior 
Program Officer for Freedom House's Eurasia programs, covering 
Turkey and Central Asia. He was the lead researcher and co-
author of two Freedom House special reports including The 
Struggle for Turkey's Internet and Democracy in Crisis: 
Corruption, Media and Power in Turkey.

                 Prepared Statement of Hon. Chris Smith

    Good morning. We will hear today about the catastrophic 
breakdown of the rule of law in our NATO ally Turkey and its 
personal consequences for several American citizens and 
thousands of Turks.
    A key matter before us today is the Turkish government's 
apparent decision to hold hostage an innocent American pastor 
in order to extort political concessions from the United 
States. This ``hostage diplomacy,'' as it has been called, is 
unacceptable when it is practiced by our enemies and appalling 
from our supposed allies.
    Pastor Andrew Brunson was detained over a year ago on 
October 7, 2016. We know from Pastor Brunson's U.S. attorney, 
CeCe Heil, that the Turkish Government prepared an order of 
deportation on the day of his detention. The Turkish Government 
could have easily expelled him from the country then and there, 
bringing to an unjust close his 23 years of peaceful work in 
Turkey but sparing him indefinite detention. And yet it chose 
not to. Why was this order of deportation never executed?
    Pastor Brunson's daughter, Jacqueline, will testify that 
prior to her father's detention the ``worst case scenario for 
Christian pastors who were not nationals in Turkey was 
deportation.'' Again, why was Pastor Brunson not deported 
consistent with this precedent?
    In February, I joined 77 of my colleagues from the House 
and Senate in writing to Turkish President Erdogan urging him 
to release and then promptly deport Pastor Brunson. Nine months 
have passed without any response to that letter.
    In the past 13 months that Pastor Brunson has spent in jail 
in Turkey, the President of the United States, the Vice 
President, and the Secretary of State, among many others, have 
interceded with the Turkish Government seeking his release. And 
yet to this day, he languishes in a punishing legal limbo 
without trial and without access to the evidence against him.
    On September 28, President Erdogan publicly suggested 
trading US-based Islamic cleric Fethullah Gulen for Pastor 
Brunson. Rhetorically addressing the United States, Erdogan 
declared in reference to Gulen ``you have one pastor as well. 
Give him to us, then we will try him [Pastor Brunson] and give 
him to you.''
    With this statement, all doubt was removed as to why Turkey 
has failed to release Pastor Brunson for more than a year. 
Turkey is holding an American citizen hostage for a deal the 
United States will never accept.
    Sadly, this is not President Erdogan's only outrage against 
an American citizen. In May, during an official visit to the 
United States, Erdogan's personal security detail--or, more 
appropriately, his goon squad--viciously attacked a group of 
peaceful protesters in broad daylight outside the Turkish 
Ambassador's residence in Washington, D.C. In the melee, 26-
year-old Ceren Borazan from my home state of New Jersey was 
thrown to the ground, punched, kicked, and held in a chokehold 
by a Turkish bodyguard who threatened her life. Video footage 
shows President Erdogan calmly looking on at the brazen 
violence. Even as 15 of his bodyguards have been charged in the 
US for the assault and the United States has cancelled handgun 
and ammunition sales to his security detail, President Erdogan 
has never apologized.
    I believe that we should examine the applicability of 
individual sanctions against grave human rights abusers in 
Turkey under the provisions of the International Religious 
Freedom Act and the Global Magnitsky Human Rights 
Accountability Act. These existing sanctions regimes, or a new 
tailored set, should be used to hold to account those 
responsible for the detention of Pastor Brunson and other cases 
of prolonged and unjustified detention in Turkey.
    Thank you to our witnesses for their presence here and in 
particular to Pastor Brunson's daughter for her courage and 
candor in testifying today before the Commission.

                Prepared Statement of Jonathan R. Cohen

    Chairman Wicker, Co-Chairman Smith, Ranking Member Cardin, 
Ranking Member Hastings, Senator Tillis, and Members of the 
Commission. Thank you for inviting me to testify this morning.
    Today's hearing is an important opportunity to reaffirm the 
abiding U.S. interest in and commitment to democracy, human 
rights, and rule of law in Turkey. It is also an opportunity to 
underscore the value of the U.S.-Turkey Alliance, despite the 
current strains in the bilateral relationship and the 
challenges facing Turkey today.

U.S.-Turkey Alliance

    Having spent the last 65 years as NATO Allies, the United 
States and Turkey have deep and complex relations. With the 
second-
largest military force in the Alliance, a dynamic economy, and 
a population of 80 million, Turkey's critical position and 
regional clout have given Ankara significant influence on 
issues of core U.S. interest over the years. For example, from 
the early 1990s until 2003, Turkey facilitated the no-fly zone 
over the Iraqi Kurdistan Region, allowing it to develop in 
peace and escape Saddam Hussein's tyranny. In Afghanistan, 
Turkey was a major troop contributor to the International 
Security Assistance Force (ISAF), while also providing use of 
its airspace and allowing the refueling of U.S. aircraft on 
ISAF missions. Our long history of allied military cooperation 
also includes operations in Korea, the Balkans, and Somalia.
    Apart from military affairs, we share many goals and 
concerns. Like us, Turkey wants to limit Iranian and Russian 
influence in its region; it supports a unified and sovereign 
Iraq; and it remains a partner in efforts to resolve the war in 
Syria. The Turkish government and people also deserve 
recognition for the enormous hospitality they have displayed in 
hosting more than three million Syrian refugees. We value 
Turkey's efforts to foster regional stability and its 
contributions to global security.
    Turkey is an important partner in the Global Coalition to 
Defeat ISIS and provides critical bases for U.S. and Coalition 
military forces, from which we conduct precision airstrikes; 
carry out intelligence, surveillance, and reconnaissance 
flights; maintain combat search and rescue units; and resupply 
Coalition forces in closer proximity than possible from a U.S. 
base in the Persian Gulf. Turkish forces were critical in 
liberating key territory from ISIS along Turkey's southern 
border and degrading ISIS's lines of communication to the 
outside world. For our part, we underscore our commitment to 
stand with Turkey against terrorist threats, including the PKK 
and ISIS.
    The U.S.-Turkey relationship extends beyond our mutual 
interest in stability and security in the Balkans and the 
Middle East. Both President Trump and President Erdogan have 
committed to strengthening our trade and investment ties, as 
underscored by discussions in September on our bilateral Trade 
and Investment Framework Agreement. The recent proposal for 
Boeing to provide Turkish Airlines with forty Dreamliner 
passenger aircraft--a deal that, if finalized, is worth $10.8 
billion and is expected to sustain 25,000 U.S. jobs--
illustrates the potential of our economic relationship. Our 
extensive exchanges of students, scientists, and professionals 
ensure our countries remain interconnected on a people-to-
people level and provide valuable opportunities for innovation 
and entrepreneurship, which are vital to our knowledge-based 
economies.
    Ankara seeks further improvement in each of these areas of 
cooperation--and so do we. We will continue our efforts to 
develop constructive dialogue in order to maximize the enduring 
benefits of our strategic alliance.

Democracy, Human Rights, and Rule of Law

    In my remaining remarks today, I would like to focus on the 
U.S. Government's concerns over Turkey's protracted state of 
emergency, which has had negative effects on democracy and 
democratic institutions, on human rights, and on rule of law. 
Chief among those concerns is the security of and protection of 
human rights and fundamental freedoms for U.S. citizens in 
Turkey and locally employed staff at the U.S. Mission in 
Turkey, a number of whom have been arrested on dubious 
terrorism charges under the state of emergency.
    As I highlight these concerns, it is in the context of 
Turkey being a longtime friend and Ally, and with deep empathy 
and appreciation for the fact that on July 15, 2016, Turkey 
endured a traumatic coup d'etat attempt. We continue to support 
Turkey's efforts to bring to justice those responsible for the 
failed coup. It is in the national interest of both the United 
States and Turkey for Turkey to be stable, democratic, and 
prosperous. We continue to support Turkey's democratic 
development and vigorously encourage application of the rule of 
law, including due process, transparency, and judicial 
independence.
    The July 2016 attempted coup, in which nearly 250 perished 
and thousands were wounded, was an evil attack on democracy and 
a tragedy for Turks, who bravely took to the streets to defend 
their democracy. A few months later, I stood in Turkey's 
parliament building, the Grand National Assembly, and observed 
the destruction that Turkish Air Force F-16s had wrought on the 
people's house, in which all political parties sit. The Turks 
asked me to imagine the national trauma if such an attack had 
happened here on our Capitol dome. The Turkish nation was 
shaken by the coup attempt and remains so.
    It is to be expected that Turkey would--and we support its 
efforts to--investigate and arrest those who directly 
participated or materially aided in the planning, preparation, 
and conduct of the coup attempt. The U.S. Government is 
carefully reviewing material provided by Turkey related to the 
Turkish Government's request that the United States extradite 
Fethullah Gulen and will give similarly careful consideration 
to any new extradition requests related to the coup attempt. We 
again underscore our willingness to assist Turkish authorities 
in their investigation of the attempted coup and support 
bringing to justice those who participated.
    Now, more than one year later, a restrictive state of 
emergency remains in place and appears to have been used 
expansively to target many Turks with no connection to the coup 
attempt. We were concerned to see Turkey extend the state of 
emergency for a fifth time on October 17 for an additional 
three months.
    The prolongation of the state of emergency has, in the view 
of the U.S. Government, negatively impacted Turkish democracy, 
rule of law, and respect for fundamental freedoms. The Turkish 
government has expropriated nearly one thousand private 
businesses and dismissed well over 100,000 from their jobs. 
Tens of thousands have been arrested on terror-related charges. 
Authorities have imprisoned a growing number of opposition 
lawmakers, journalists, leading intellectuals, academics, civil 
society activists, and respected human rights defenders--
including respected philanthropist Osman Kavala, Amnesty 
International Turkey's Chairman Taner Kilic, and its recently 
released Director Idil Eser. We call on the Turkish government 
to expeditiously end the state of emergency, release those not 
proven guilty of criminal offenses, expedite due process for 
dismissed civil servants, and cease the seemingly 
indiscriminate prosecution of individuals--in many cases, 
individuals that appear to have been targeted because they 
criticize the government, its officials, or its policies, or 
have had contact with those who did.
    As the Department of State has made clear in numerous press 
statements since the coup attempt, these detentions and 
prosecutions, often with little evidence, transparency, or 
effective mechanism for redress, undermine confidence in the 
rule of law in Turkey. The U.S. Mission in Turkey is closely 
following these cases, monitoring trials, engaging with civil 
society leaders, and working with like-minded partners to 
underscore the importance of respect for rule of law and 
individual rights, including fair trial guarantees. These 
rights are enshrined in the Turkish Constitution and are part 
of Turkey's international obligations and commitments.
    Additionally, we have seen a worrisome diminishment in 
freedom of the media and freedom of expression. Detentions of 
journalists under emergency rule have effectively silenced most 
independent media, most notably via the trial of 17 journalists 
and media executives--four of whom remain in custody--for 
Turkey's leading independent newspaper, Cumhuriyet. As we have 
expressed publicly and to the Turkish government on numerous 
occasions, curbs on freedom of expression, freedom of assembly 
and association, and other fundamental freedoms erode the 
foundations of democratic society, and are impediments to re-
establishing the social and legal underpinnings of state and 
public security. Turkey benefits from having more engaged 
voices, not fewer--even voices it may find controversial or 
uncomfortable.

American Citizen Detentions

    One of the Department of State's highest priorities is 
assisting U.S. citizens abroad and providing all possible 
consular services to U.S. citizens in need.
    There have been dozens of U.S. citizens detained or delayed 
by Turkish security services in some capacity since July 2016. 
Several U.S. citizens, including U.S.-Turkish dual nationals, 
remain in prison under the state of emergency, all facing 
dubious terrorism and coup attempt-related charges.
    As there is no international obligation to grant consular 
access to dual nationals, and as Turkey does not consider U.S.-
Turkish dual nationals to be U.S. citizens for the purposes of 
consular notification, we were long denied access to our dual 
nationals detained under state of emergency provisions. After 
sustained U.S. Government engagement, the Government of Turkey 
for the first time granted us consular access to these dual 
nationals in mid-October of this year. High-level conversations 
continue to enhance cooperation and are yielding progress on a 
range of legal issues.
    Andrew Brunson, a U.S. citizen and Christian pastor who has 
lived in Turkey for nearly 25 years, has been in prison since 
October 7, 2016. Of the U.S. citizens now detained in Turkey 
under the state of emergency, he has been held the longest 
without a judicial hearing. The outlandish charges against Mr. 
Brunson include gathering state secrets for espionage, 
attempting to overthrow the Turkish parliament and government, 
and attempting to change the constitutional order. The United 
States consistently calls for Mr. Brunson's release at the 
highest levels--President Trump, Vice President Pence, and 
Secretary Tillerson have all raised his case multiple times 
with their Turkish counterparts. On August 15, Secretary 
Tillerson publicly called for his release during the 
International Religious Freedom Report rollout. Our Embassy in 
Ankara continues to engage on this case and provide consular 
services to Mr. Brunson and his family, meeting with him and 
his wife on a regular basis.
    We remain deeply concerned about the detention of all U.S. 
citizens, including U.S.-Turkish dual nationals, who have been 
arrested under the state of emergency. We will continue to 
visit them when possible, raise their cases with our Turkish 
counterparts, and seek a satisfactory resolution of their 
cases.

Locally Employed Staff and Visa Suspension

    Under the state of emergency, the Government of Turkey 
arrested two of U.S. Mission Turkey's locally employed staff on 
what we believe are specious grounds. Longtime U.S. Consulate 
Adana employee Hamza Ulucay has been in detention since 
February 23, 2017. On October 5, Turkish authorities detained 
longtime Consulate Istanbul DEA local employee Metin Topuz. A 
number of other locally employed staff have come under 
investigation, and one employee's wife and daughter were held 
in jail without charges for nine days last month. The Turkish 
government has leveled flimsy terrorism charges against both 
Mr. Ulucay and Mr. Topuz. It appears they were arrested for 
maintaining legitimate contacts with government officials and 
others in the context of their official duties on behalf of the 
U.S. Government. We have and will continue to push for their 
release.
    The targeting of U.S. local staff, particularly those 
responsible for law enforcement coordination, raised our 
concern over Turkey's commitment to providing proper security 
for our diplomatic and consular facilities and personnel, 
leading to Mission Turkey's suspension of non-immigrant visa 
services on October 8. We have received initial high-level 
assurances from the Government of Turkey that there are no 
additional local employees of our Mission in Turkey under 
investigation. We have also received initial assurances from 
the Government of Turkey that our local staff will not be 
detained or arrested for performing their official duties, and 
that Turkish authorities will inform the U.S. Government in 
advance if the Government of Turkey intends to detain or arrest 
a member of our local staff.
    Based on these preliminary assurances, we determined the 
security posture had improved sufficiently to allow for the 
resumption of limited visa services in Turkey. However, Mr. 
Ulucay and Mr. Topuz remain in custody and we have serious 
concerns about their cases. We will continue to engage with our 
Turkish counterparts to seek a satisfactory resolution of these 
cases, as well.

No Linkage Between Cases in U.S., Turkey

    Some in the Turkish government have made efforts to equate 
cases involving our local staff with the arrest in the United 
States of a senior executive of Turkey's state-owned Halk Bank. 
The two situations and contexts are very different and the U.S. 
Government strongly objects to any effort to link them. The 
executive, Mehmet Hakan Atilla, has been charged with 
conspiring to evade U.S. sanctions against Iran. Our employees 
were arrested on terrorism charges based on contact, in the 
course of their official duties, with Turkish officials whom 
the Turkish state now finds unpalatable.

Enduring U.S.-Turkey Relations

    As a longtime Ally and friend, we want Turkey to be the 
best democratic partner it can be. We have long supported--and 
will continue to support--democratic development there, because 
we believe that respect for the rule of law, judicial 
independence, and fundamental freedoms are sources of strength 
and expand our potential for partnership. We will also continue 
providing the assistance our imprisoned citizens and local 
employees need, and will not rest until all of their cases are 
resolved.
    Members of the Commission, thank you for your attention 
today. I look forward to answering your questions.

                    Prepared Statement of CeCe Heil

    Chairman Wicker, Chairman Smith, Ranking Member Cardin, 
Ranking Member Hastings, and distinguished Commissioners, thank 
you for inviting me to speak before you today and for the 
opportunity to highlight a case that warrants your careful 
attention.
    Andrew Craig Brunson is a United States citizen and pastor 
from North Carolina. For over 23 years, Pastor Brunson has 
lived peacefully in Turkey, serving as pastor of the Izmir 
Resurrection church, and raising his family without incident. 
Then, on October 7, 2016, Pastor Brunson arrived home to find a 
written summons to report with his passport to a local police 
station. Believing the summons was related to his routine 
application for a renewal of his residence visa, Pastor Brunson 
promptly reported to the Izmir police, only to be arrested and 
informed that an order of deportation had been entered against 
him, as he had suddenly been deemed a threat to national 
security. He was to be held in the Harmandali Detention Centre 
pending deportation. However, Pastor Brunson was never 
deported; instead he remains unjustly incarcerated in Turkey, 
wondering if he has been forgotten, as today marks the 404th 
day of his detention. And just what crime has Pastor Brunson 
committed? He literally has no idea, and has yet to be charged 
with any crime.
    As unbelievable as that may seem, under the current State 
of Emergency in Turkey, and subsequent emergency decrees, all 
protections afforded by Turkey's Constitution, or in 
International Declarations and Covenants, including those 
contained in the Organization for Security and Co-operation in 
Europe (OSCE), of which Turkey is a member, just disappear. 
Despite President Erdogan's recent public declarations that 
Turkey is indeed a state of laws, the fact that he has the sole 
power to change the law at his whim, and remove any obligation 
to be bound by it, wholly undermines those claims. As a result 
of the rapidly diminishing rule of law, Pastor Brunson's file 
has been sealed, all visits from his attorney are recorded, and 
he can be held without any formal charges for up to 7 years, 
completely destroying any ability to prepare an adequate 
defense, and obliterating all rights to due process.
    Accordingly, after his arrest, Pastor Brunson continued to 
remain in detention at the Harmandali Centre, and was denied 
access to an attorney until December 9th, 2016--over two months 
later--when he was transferred in the middle of the night to a 
high security prison in Izmir. At that time, he was informed 
that he was being detained as a suspect, although evidence had 
yet to be gathered, on the absurd grounds of Membership in an 
Armed Terrorist Organization. The ensuing months were filled 
with multiple appeals contesting his detention, which cited the 
legal deficiencies of such a decision, and all of which were 
summarily denied, even though no evidence has been set forth to 
substantiate any crime. So, Pastor Brunson has remained, 
languishing in a prison cell with no end in sight.
    While in prison, Pastor Brunson has lived under inhumane 
conditions, and has spent extended periods of time in a cell 
meant for eight people, but which at times has held as many as 
22 prisoners, of which Pastor Brunson is always the only 
Christian. During his incarceration, Pastor Brunson has lost 
over 50 pounds, he has lost precious time with his family that 
can never be replaced, but worst of all, he has lost hope, 
wondering why Turkey, a NATO ally and a country he loves and 
has served for over 2 decades, has been able to hold held him 
hostage, an innocent United States citizen, for over a year.
    During this ordeal, Pastor Brunson's plight has caught the 
attention of hundreds of thousands of people around the world 
and there have been an unprecedented amount of high level 
demands for Pastor Brunson's release. And yet, on August 24, 
2017, the Turkish Government decided to levy new and additional 
accusations against Pastor Brunson, these just as ludicrous as 
and even more disconcerting than the original. They include, 
Political or Military Espionage, Attempting to overthrow the 
Government, Attempting to overthrow the Turkish Grand National 
Assembly, and Attempting to overthrow the Constitutional Order, 
with the last three not only carrying aggravated life 
sentences, but requiring that the accused used force and 
violence. And once again, no evidence has been put forth to 
substantiate such ridiculous accusations. Pastor Brunson has 
and continues to adamantly maintain his innocence and deny all 
the accusations. He has reiterated that his sole purpose for 
being in Turkey for the past 23 years was ``for one purpose 
only. To tell about Jesus Christ.'' He has further stated that 
he has ``done this openly, in front of the government.'' And so 
the question remains, why are they still holding him?
    Perhaps President Erdogan himself answered this question 
when he recently demanded a swap of Pastor Brunson for 
Fethullah Gulen, the cleric Erdogan blames for the failed coup 
attempt in July of last year. So, Pastor Brunson's 
incarceration has simply become a bargaining chip for Turkey. 
However, I would submit that President Erdogan has mistakenly 
been led to believe that Pastor Brunson's value lies simply as 
a pawn in a swap. In reality, Pastor Brunson's greatest value 
to Turkey lies in President Erdogan's approval of his immediate 
release back to the U.S. as a sign of good will, and as a major 
step toward restoring amicable relations between Turkey and the 
United States; an invaluable move with immeasurable and long-
lasting benefits. We should use every effort to make sure that 
President Erdogan gets that message.

                Prepared Statement of Jacqueline Furnari

    Chairman Wicker, Chairman Smith, Ranking Member Cardin, 
Ranking Member Hastings, and distinguished Commissioners, thank 
you for the opportunity to testify on behalf of my father.
    Having grown up in Turkey, it has been so hard for me to 
understand the current state of events. My parents moved to 
Turkey in 1993, so that's where my brothers and I grew up. In 
fact, my brothers were born there. We even went to Turkish 
grade school because my parents wanted us to learn the language 
and feel comfortable in the culture. To me, it was home. My 
family, school, and friends were in Turkey. I grew up in the 
mix of Turkish and American culture, and loved seeing the 
beauty in both. On holidays, we sometimes hung a Turkish flag 
from our balcony, as our neighbors did. We loved and respected 
the Turkish people, and my parents were dedicated to serving 
the Turkish people for as long as they could. My brothers and I 
used to joke that we would have to bring our future children to 
Turkey to see their grandparents.
    As I grew up, I saw how my father poured himself into his 
work, and how willing he was to sacrifice his needs and wants 
for the sake of others. He believed--as I do--in a greater 
purpose in life, and actively lived out his life with the 
purpose of showing people the love and grace of God. He taught 
this message in the home, too. Their continued commitment to 
serving God and the people of Turkey was such a wonderful 
example for my brothers and me to see. We were truly blessed to 
be raised by such faithful parents.
    I know my dad and his character, as only a daughter can, 
and I know the charges against him are absurd. My father is not 
an armed terrorist trying to overthrow any government, my 
father is a pastor who went to Wheaton College, then on to 
seminary, and got a Ph.D. in New Testament. He has selflessly 
served Turkey for 24 years now. Everything in his life is 
centered on his faith. For my family, who has loved, served, 
and prayed for Turkey and its people, seeing these absurd 
charges brought against my father has been an extremely painful 
experience.
    Previously, the worst case scenario for Christian pastors, 
who were not nationals, in Turkey was deportation, which is why 
I never could have guessed my father would be imprisoned there 
for over a year. This is unheard of. My family has been shocked 
and deeply hurt during the past year. The past year of our 
lives has been filled with uncertainty, worry, tears, and 
countless unanswered questions.
    I didn't even know when my parents were detained in October 
last year. I only found out several days after the fact because 
they took their phones and did not let them contact anyone. For 
what felt like weeks, I was in a state of panic. This hadn't 
happened before. I couldn't find out any information about what 
the charges were. There was no communication for two weeks, 
although we tried desperately to find out any information. 
Then, my mother was released. I called her the moment I got her 
message. I will never forget how shocked and brokenhearted she 
was because my father was still detained and no one knew why.
    My family kept assuming this situation would end soon. But 
it kept dragging on, month after month. My brothers and I 
didn't get to spend Christmas with my mom because she was 
scared of what might happen to us if we flew into Turkey. I 
missed a last Christmas as a single woman with my family. I was 
about to transition into a different phase of life, and I 
wanted that one last family Christmas before things changed.
    In February I got married. We didn't want to get married 
without my parents present, but because my husband is in the 
military, we could not postpone it. We had received my father's 
blessing, but we felt so terrible about getting married while 
he was imprisoned. Neither of my parents were present when I 
got married. I will never get that moment back. For those of 
you who are fathers to daughters, I'm sure you would want to 
walk your daughter down the aisle. My father didn't get that. I 
didn't get that. My husband and I decided to have a civil 
ceremony and to postpone our wedding ceremony until my father 
is home. I'm still waiting for my wedding. I'm still waiting to 
wear the wedding dress that I got almost a year and half ago. 
I'm still waiting for my dad to walk me down the aisle. I'm 
still waiting for that father-daughter dance.
    I'm graduating from college in December. My dad doesn't 
want to miss seeing me graduate. He invested a lot in helping 
me find a career path. However, unless a miracle happens, I 
will be achieving yet another life milestone without my 
parents.
    In his letters, my father says that the hardest part of his 
imprisonment is missing out on being with his family. That is 
what he most wants. He has missed his only daughter getting 
married, and might miss my college graduation. He has missed 
helping my older brother make career choices and witnessing his 
accomplishments at Cornell. He has missed being with my younger 
brother who has so badly needed his dad and mom in the last 
year. These are the things that pain my dad the most, not being 
able to be with us.
    In August, I took a risk and flew to Turkey to visit my 
father and support my mother. I never really processed that 
visit because it makes me too emotional. I will never forget 
any moment of the day we got to visit. I remember hearing my 
dad's voice for the first time in a year as they brought him 
into the room. I remember how broken, tired, and desperate he 
sounded as he tried to fight to meet in a room where he could 
hug and hold us for the only hour he would have seen us the 
whole year. We sobbed the entire visit. It was hard to fit 
words in because the emotions were too strong and only led to 
more tears. It was hard to see my father so broken, so thin, so 
desperate. He hated having us kids see him that way.
    During my summer visit, he was already talking about how 
fearful he was of facing the cold winter in that poorly 
insulated prison. That he was already concerned about the 
winter in the middle of August shows how hopeless he was. And 
now, the cold that he feared so much has started. My father is 
now dealing with anxiety and depression. Seeing him in that 
much pain broke me. He's been changed by this experience. My 
whole family has been changed.
    In a recent visit with my mother, my father said ``I plead 
with the Lord to release me by Christmas so I can be with our 
son in his last year in high school and at our daughter's 
graduation before she moves to Germany. But if I'm still here 
at Christmas, I'll thank God for sending Jesus to be born. If 
I'm still here at New Year, I'll thank him for helping me make 
it through this year. If I'm here on my birthday, I won't be 
like Job and curse the day I was born. I'll give thanks for the 
life I've lived.'' My father is handling his situation better 
than he was before. But we still want so desperately for him 
not to have to face Christmas imprisoned again. We want him to 
be home again, with his family.
    My family has suffered greatly because of these absurd and 
false charges. Please, make any and all efforts to secure my 
father's release and bring him home for Christmas. He's been 
falsely imprisoned for far too long.

                  Prepared Statement of Nate Schenkkan

    We have heard today already about some of the ways in which 
the erosion of the rule of law in Turkey has entrapped and 
endangered Americans. I will speak today about the state of the 
rule of law in Turkey, what to expect in the next few years, 
and how the U.S. can rebalance its relationship with Turkey 
around the rule of law. Modern Turkey's institutions have 
always been weak in terms of democratic accountability and the 
protection of human rights.
    Modern Turkey's legal and constitutional tradition places 
greater priority on the unity of the nation and the integrity 
of the state than on the rights of the individual and the 
separation of powers. There was a brief window in the 2000s 
when Turkey sought to align with European Union standards, 
during which Turkey made a number of cardinal reforms to 
strengthen the independence of institutions and protect human 
rights, but that was followed by a sustained attack on the rule 
of law and democratic institutions for much of the last decade.
    The partnership between the ruling AKP and the Gulen 
movement that became entrenched during the 2000s did severe 
damage to the judiciary through instrumentalized trials of 
Kurdish activists, the military, media, and secular elites. 
After the AKP and the Gulen movement fell out in late 2013, the 
government turned on the judiciary in order to eliminate its 
former allies.
    Two changes stand out:

    <bullet> LIn February 2014, the government amended the law 
on the High Council of Judges and Prosecutors (HSYK), which 
controls appointments to the judiciary, to strengthen the 
Minister of Justice's role in the Council, including by 
reassigning members of the Council. This reversed key reforms 
to ensure the independence of the judiciary that the government 
had supported in 2010.
    <bullet> LIn June 2014, the government established a new 
institution called ``peace judgeships'' (Sulh Ceza 
Hakimlikleri) with responsibility for so-called ``protective 
measures,'' including approving pretrial detentions, and 
removing content from the internet and closing internet 
websites. These new peace judgeships lack appropriate 
mechanisms for appeal and oversight, and have been a major 
factor in the increased use of pretrial detention and internet 
blocking in the period after 2014.

    Following the coup attempt of July 2016, the government has 
used the state of emergency to eradicate what it perceives as 
sources of opposition, to subordinate the judiciary even 
further, and to dismantle rule of law protections.
    Turkey has been under emergency rule for 16 months. During 
this time:

    <bullet> LSome 150,000 people have passed through police 
custody on the basis of terrorist offenses, membership of armed 
groups, or involvement in the attempted coup. Of those, at 
least 62,000 have been arrested.
    <bullet> L153 journalists are in prison.
    <bullet> LMore than 111,000 people have been fired from 
public service through emergency decrees without adequate due 
process protections. They are effectively blacklisted, which 
means they will be unable to find public employment and are 
evicted from public housing; many if not most will not be able 
to find private employment, either.
    <bullet> LThe state has also closed and seized institutions 
around the country:

        - 1,412 associations have been closed
        - 15 universities run by foundations have been closed
        - 162 media outlets have been closed, including 6 news 
        agencies, 48 newspapers, 20 magazines, 31 radio 
        stations, 28 TV stations, and 29 publishing houses
        - 2,271 private educational institutions have been 
        closed
        - 19 unions have been closed
        - 969 companies valued at approximately $11 billion 
        have been seized
        - 94 mayors have been removed and replaced by 
        ``trustees'' appointed by Ankara
        - 10 members of parliament are in prison, including the 
        co-leaders of the second-largest opposition party

    <bullet> L2 members of the Constitutional Court were 
removed from their positions and arrested, along with 37 
personnel of the court.
    <bullet> L183 staff were dismissed from the Supreme Court; 
91 from the Council of State; and 153 from the General 
Accounting Bureau
    <bullet> L4,240 judges and prosecutors have been dismissed 
(2956 judges and 1284 prosecutors).
    <bullet> L28 lawyers' associations or law societies have 
been closed
    <bullet> L550 lawyers have been arrested; 1,398 lawyers are 
facing criminal prosecution.
    <bullet> LAt least 39 lawyers have already been sentenced 
to prison

    I give this long list in order to underscore the scale of 
the transformation that is taking place in Turkey through the 
post-coup attempt purge. The media, civic sector, legal 
profession, and judiciary have been massively weakened, 
crippled even, in these purges. This is a generational event. 
These firings, arrests, and closures have largely been done on 
the basis of guilt by association, without due process or 
appropriate legal remedies.
    Emergency decrees under the state of emergency also 
significantly changed important protections for individuals 
subject to investigation:

    <bullet> LSuspects could be held for up to 30 days without 
access to a lawyer. A later emergency decree reduced this 
length of time to 14 days.
    <bullet> LThe right to confidential conversations with a 
lawyer and family members was suspended.
    <bullet> LThe prosecution was empowered reject the 
defendant's choice of lawyer.
    <bullet> LA suspect's lawyer may have restricted access to 
the case file.

    These and other serious derogations from due process 
protections have contributed to an environment in which there 
are increasing reports of torture and forced disappearances in 
detention.
    In April 2017, Turkey approved in a referendum changes to 
the constitution that will strengthen the presidency at the 
expense of other branches of government, including the 
judiciary. The referendum, held under a state of emergency with 
media seized by the government, and journalists and opposition 
leaders in prison, was neither free nor fair. There are 
reasonable grounds to suspect that the government used fraud to 
get it barely above the 50 percent threshold.
    The referendum changes increased the president's control 
over the judiciary by giving him power to appoint almost half 
(6 out of 13) of the members of the Council of Judges and 
Prosecutors. Others will be appointed by the parliament, which 
currently is under control of the president's party, the AKP. 
The oversight role of the Constitutional Court (Anayasa 
Mahkemesi) has been downgraded, as has that of the Council of 
State (Danistay). Other changes in the referendum strengthened 
the president's powers over other branches, including through 
powers to appoint and dismiss ministers, to dissolve 
parliament, and to issue decrees with the force of law. This 
has turned Turkey's system of governance into a ``super-
presidential'' system that is alien to democratic traditions.
    It is within this context that we should understand the 
ordeal that Pastor Brunson and his family have suffered, as 
well as the treatment of tens of thousands of others under 
arrest, including people like the arrested civil society leader 
Osman Kavala and America's two detained foreign service 
nationals, Metin Topuz and Hamza Ulucay. Having eliminated due 
process protections and the separation of powers, the executive 
branch is constrained neither by the balance of powers nor by 
the rights of individuals.

Looking ahead

    Turkey will hold three major elections in 2019: nationwide 
local elections, scheduled for March, and the parliamentary and 
presidential elections, both scheduled for November. Each of 
these is extremely important for President Erdogan's goal of 
remaining in power and retaining or even better strengthening 
his control over the levers of the state. Erdogan and his AKP 
no longer command the dominant big tent coalition of the 2000s 
that combined business, Islamists, Kurds, and liberals. The big 
tent has shrunk, and Erdogan's appeal is based now more on 
patronage and appeals to Turkish nationalism, Islamic identity, 
and Eurasianism. Regardless of what the U.S. and the EU do or 
don't do, President Erdogan and the AKP need anti-Western and 
nationalist appeals to keep his coalition together. Where the 
appeals fail, repression and instrumentalization of the 
judicial system will fill in the gaps.
    For this reason, we should not expect an improvement in the 
rule of law in Turkey in the next two years. It is not in 
Erdogan's or the AKP's interest to make the system work more 
fairly or more justly. Nor should we expect an improvement 
after the elections. If Erdogan wins, he will continue his 
efforts to consolidate a patronal regime. If he loses, he will 
have to tighten the screws in order to maintain his grip on 
power, just as he did after the AKP lost its majority in 
parliament in the June 2015 general election. The problem of 
rule of law in Turkey is a durable one that we will be dealing 
with for a long time.
Conclusion and recommendations

    1. The biggest problem with U.S. policy presently towards 
Turkey is that it is driven by trying to figure out what will 
placate Turkey, but more specifically, President Erdogan, 
rather than by a clear definition of U.S. interests and values 
in the relationship. This has given the inaccurate impressions 
that the U.S. needs Erdogan more than Erdogan needs the U.S. 
The U.S. should recognize that Erdogan's use of anti-
Americanism and anti-Westernism is driven by a specific 
domestic political dynamic, and nothing the United States does 
will change this. 

    2. Instead of starting from the position of seeking to 
solve the problem of anti-Western actions and rhetoric from 
Turkey's political leaders, the U.S. should define clearly 
first for itself what its core interests and values are in its 
relationship with Turkey, and then articulate policies to 
achieve these interests, including by taking measures with 
Turkey to enforce those interests and values if they are 
threatened or violated. 

    3. I believe the U.S. has a long-term, strategic interest 
in Turkey being a stable state based on the rule of law, in 
which political and ethnic minorities enjoy fundamental rights, 
including the ability to participate fully in political 
processes. I believe this strategic interest is of equal 
importance to the immediate interest of keeping Turkey in NATO. 
While the U.S. cannot make Turkey into such a state, this 
should be a key pillar of any U.S. strategic vision for the 
Middle East, and one that can be supported through measures 
taken now.

        <bullet> First, the U.S. should consider the use of 
        additional instruments, including Global Magnitsky 
        sanctions on Turkish officials responsible for grave 
        human rights violations. Congress should make use of 
        its lawful role in forwarding such cases and requesting 
        the State Department's official review of evidence. The 
        compilation of such cases will play an important role 
        in any future transition in Turkey towards a more just 
        and inclusive regime.

        <bullet> Second, both Congress and the State Department 
        should provide funding for human rights defenders, 
        civil society activists, and journalists in Turkey. 
        Statements of support are welcome, but Congress should 
        take the next step. Congress should create a special 
        fund for Turkish civil society and independent media, 
        and make a priority support for the tens of millions of 
        Turkish citizens who see the country's future as a 
        democratic, rule of law state.

        <bullet> Third, the United States should make clear 
        that the following items are not up for transaction in 
        the U.S.-Turkey relationship:

        The rule of law in the United States. Attempts to 
        change the outcome of judicial processes in the United 
        States with disregard for normal diplomatic and legal 
        channels, as has occurred with the hiring of American 
        lobbyists on behalf of Reza Zarrab and the attempt to 
        make the extradition of Fethullah Gulen a political and 
        not evidentiary issue, will damage the U.S.-Turkey 
        relationship. Similarly, if Turkish officials flout 
        U.S. law, they will face criminal prosecution. The 
        prosecution of Reza Zarrab and Turkish officials for 
        the flagrant violation of the sanctions regime on Iran 
        is an important signal that violations of U.S. laws 
        will be punished. On a lesser scale but also important 
        is the prosecution of individuals and presidential 
        bodyguards who assaulted protesters at Sheridan Circle 
        in May. The Van Hollen amendment to SFOPS reinforces 
        this principle by underscoring that such criminal 
        actions may affect U.S. support and cooperation with 
        Turkey. 

        American citizens and employees of the U.S. Government. 
        The U.S. will protect its citizens accused of crimes 
        overseas, and insist on both consular access to them 
        and access for them to lawyers of their choosing. If it 
        concludes the detention of an American citizen is not 
        based on a legitimate criminal accusation, it should 
        sanction officials responsible for their detention. 
        This is why the Lankford-Shaheen amendment to SFOPS is 
        a good idea. The U.S. should also stress that the 
        offensive conspiracy theory put forward by prosecutors 
        and pro-government media about former State Department 
        official Henri Barkey will have consequences for 
        bilateral relations, and make clear it will protect its 
        employees, including non-Americans, from undue and 
        illegitimate criminal prosecution. The continuing 
        detention of two of our foreign service nationals 
        should result in the continuation of visa restrictions 
        and other punitive measures as needed. Congress should 
        also request sanctions against individual officials 
        responsible for the illegitimate detention of U.S. 
        employees.

    These are practical recommendations for strengthening U.S. 
Turkey policy, but they are not a magic bullet. We should 
prepare ourselves for a very rocky short-term relationship, and 
take the necessary measures to protect the U.S.'s core 
interests. The U.S.-Turkey relationship is of great 
consequence. It is my hope that the U.S. will stand with the 
many Turkish citizens working for true democracy and rule of 
law in Turkey, and that circumstances will one day improve to 
allow the bilateral relationship to return to a less tense 
basis.
    Thank you.

                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================


 Questions for the Record Submitted by Hon. Thom Tillis to Jonathan R. 
                                 Cohen

Question 1:

    In recent months, Turkey has withdrawn from three ``Human 
Dimension'' meetings of the Organization for Security and 
Cooperation in Europe (OSCE) because of its objections to the 
participation of a U.S.-registered NGO it considers to be 
associated with the Gulen movement. Ankara is engaged in a 
campaign to block such NGOs from participating in other UN and 
OSCE events. Turkey has also withdrawn its major contributor 
status from the Council of Europe after the Parliamentary 
Assembly of the Council of Europe (PACE) awarded the Vaclav 
Havel Human Rights Prize 2017 to someone Turkey considers 
associated with Gulen. How is the United States responding to 
these actions?

Answer 1:

    The State Department is concerned about recent Turkish 
government actions that have complicated operations at the 
OSCE, and by Turkey's announcement that it would withdraw its 
major contribution status from the Council of Europe. Civil 
society participation is a cornerstone of these organizations 
and a critical part of many events, including the OSCE's Human 
Dimension Implementation Meeting. We have raised this issue at 
high levels with the Government of Turkey, emphasizing the 
importance of international organizations in preserving 
stability and facilitating international cooperation, and 
encouraging Turkey to share any evidence that might help the 
international community respond to its concerns.
    The Austrian Chairperson-in-Office of the OSCE formed a 
``reflection group'' led by the Swiss delegation to discuss 
Turkey's concerns. The U.S. delegation is a part of this group, 
which has met several times and continues to seek a resolution.
    We are also closely monitoring Turkey's recent actions in 
the Council of Europe and engaging allies in the organization 
on how its member states and the Council itself will respond. 
Turkey's full participation, including upholding its human 
rights, democracy, and rule of law commitments under the 
European convention and maintaining its major donor 
contribution, is important to the credibility and operations of 
the organization and of significant benefit to Turkey.

Question 2:

    What human rights and rule of law-focused training or 
capacity building programs does the U.S. Government provide to 
Turkish government institutions, particularly the judiciary and 
law enforcement, if any?

Answer 2:

    At present, the Department of State's targeted programming 
in Turkey prioritizes work with civil society and other diverse 
stakeholders in support of human rights and fundamental 
freedoms. These programs contribute to safeguarding rule of 
law, government transparency, and public awareness of 
government policy and practices. We would be happy to provide 
further details in a classified setting.

Question 3:

    To the extent that Privacy Act restrictions allow you to 
answer, does the State Department have consular access to all 
U.S. citizens detained on coup-related charges in Turkey, 
including dual citizens? Are you satisfied with the degree of 
consular access? Do all of these individuals have access to 
legal counsel?

Answer 3:
    In mid-October, after sustained U.S. Government engagement, 
the Government of Turkey granted the Department of State 
consular access to dual nationals after we permitted a senior 
Turkish official to meet with arrested U.S.-Turkish dual 
nationals in the United States. Our subsequent requests for 
follow-up consular access to U.S.-Turkish dual national 
detainees are pending with the Turkish government. We 
appreciate the consular access that we have received, and 
encourage the Turkish government to continue to allow regular 
consular access to U.S. citizens who also hold Turkish 
citizenship. Due to the requirements of the Privacy Act, we are 
unable to comment on access to legal counsel.

Question 4:

    While Turkey is not required by the Vienna Convention on 
Consular Relations to provide consular access to dual US-
Turkish citizens, what sort of consular access to dual US 
citizens does the United States receive in other NATO 
countries?

Answer 4:

    Although not legally required to do so under international 
law, other NATO partners--as a courtesy--generally give us 
consular notification of detention and access to dual U.S. 
nationals detained abroad in their respective countries when 
requested by the U.S. citizen. Such notification and access, 
however, can be inconsistent when the detained individual's 
U.S. citizenship is unknown to the country of detention and/or 
the individual does not request access.

Question 5:

    Has Pastor Brunson been formally charged?

Answer 5:

    Pastor Brunson's arrest warrant contains five charges: 
membership in the armed terrorist organization ``FETO,'' 
military espionage, attempt to overthrow or thwart the 
government of the Republic of Turkey, attempt to overthrow or 
thwart the Parliament of the Republic of Turkey, and attempt to 
overthrow the constitutional order of the Republic of Turkey. 
It is our understanding that the prosecutor is still preparing 
an indictment against Pastor Brunson. Under Turkey's current 
state of emergency provisions, an individual may be held in 
detention for up to five years without an indictment.

Question 6:

    What is the Administration's reaction to statements from 
President Erdogan seeming to imply an interest in an exchange 
of Andrew Brunson for Fethullah Gulen?

Answer 6:

    U.S. officials have clearly and at senior levels 
categorically rejected any linkage between the arrest of Andrew 
Brunson and Turkey's extradition request for Fethullah Gulen. 
The two situations and contexts are very different and the U.S. 
Government strongly objects to any effort to connect them.

Question 7:

    Do you support proposed appropriations legislation for 
FY2018 that would require the State Department to identify and, 
in certain cases, possibly deny visas to senior Turkish 
officials linked by credible information to ``wrongful 
prolonged detention'' of U.S. citizens? Why or why not?

Answer 7:

    One of the highest priorities of the Department of State is 
the safety and security of our citizens traveling and living 
abroad, particularly in cases where they have been wrongfully 
detained. The State Department supports the proposed 
appropriations legislation with a recommendation to modify the 
language in Section 7046(d) to mirror the waiver language in 
7046(e). The restrictions target elements of the Government of 
Turkey that have engaged in activities against U.S. interests. 
Section 7046(d) targets the Presidential Guard, several members 
of which have been indicted in relation to the violent 
incidents in May 2017 at Sheridan Circle. Section 7046(e) 
targets yet to be identified individuals responsible for the 
unlawful detention of American citizens. The Department 
recommends replacing the certification requirement in 7046(d) 
with a waiver authority similar to that contained in 7046(e) to 
provide the Secretary of State greater flexibility to respond 
to changing conditions.

Question 8:

    What is the Administration doing on behalf of detained U.S. 
consulate employees Hamza Ulucay and Metin Topuz regarding 
their treatment, visitation rights, due process, and possible 
release? Do they have access to legal counsel? Are they 
charged? Are the family members of any U.S. Mission locally 
employed staff currently detained or facing other official 
penalties?

Answer 8:

    U.S. Government officials have raised multiple times and at 
the highest levels the cases of U.S. Consulate Istanbul 
employee Metin Topuz and U.S. Consulate Adana employee Hamza 
Ulucay, including with President Erdogan, Prime Minister Binali 
Yildirim, and a range of other Turkish officials. We continue 
to do so as we seek a satisfactory outcome of these cases.
    Despite initial delays, Mission Turkey engagement helped 
facilitate access to legal counsel for both Mr. Topuz and Mr. 
Ulucay. Both have been charged and Mr. Ulucay's trial is 
ongoing; his next hearing is scheduled for December 27. Our 
engagement is ongoing to ensure satisfactory treatment and 
visitation rights are maintained. Though the wife and daughter 
of a third Mission Turkey local employee were held without 
charges for nine days in October, they have since been released 
and no other Mission Turkey local staff or their family members 
are in detention.

Question 9:

    Are there any members of the Turkish parliament who are 
openly sympathetic to our desire to release the U.S. citizens 
and consulate employees who have been unjustly detained?

Answer 9:

    Some members of Turkey's opposition parties have criticized 
the Government of Turkey's actions against our locally employed 
staff. However, there has been no sustained public support from 
any party or any singular figure, likely in part due to fear 
that open association with the United States on these sensitive 
matters could prompt political or legal reprisals.

Question 10:

    What, if anything, does the resumption of visa services 
mean for existing cases against local Turkish employees of the 
U.S. government and U.S. citizens arrested under the state of 
emergency? Under what conditions do you expect full visa 
services to resume?

Answer 10:

    We implemented the suspension of non-immigrant visa 
services out of concern over the Government of Turkey's 
commitment to the safety and security of our diplomatic and 
consular personnel and facilities. We have subsequently 
received initial high-level assurances from the Government of 
Turkey that there are no additional local employees of our 
Mission in Turkey under investigation, that our local staff 
will not be detained or arrested for performing their official 
duties, and that Turkish authorities will inform the U.S. 
government in advance if the Government of Turkey intends to 
detain or arrest a member of our local staff. Based on these 
preliminary assurances, we determined the security posture had 
improved sufficiently to allow for the resumption of limited 
non-immigrant visa services in Turkey.
    With Mr. Ulucay and Mr. Topuz still in custody, our 
concerns about the safety and security of our personnel and 
facilities remain. We will continue engaging our Turkish 
counterparts to seek a satisfactory resolution of these cases. 
Resumption of full visa services will depend on our assessment 
of the Government of Turkey's commitment to the safety and 
security of our diplomatic and consular personnel and 
facilities.
Question 11:

    What core U.S. interests are at stake in the U.S-Turkey 
relationship?

Answer 11:

    Turkey is a key NATO Ally and a valuable contributor to the 
Global Coalition to Defeat ISIS. Turkey has the second-largest 
military in the Alliance, a dynamic economy, a population of 80 
million, and control over key energy transit pipelines and 
routes. Its critical position and regional clout have given 
Ankara significant influence on issues of core U.S. interest 
over the years--from Korea to the Balkans to Iraq to 
Afghanistan.
    Turkey provides critical bases for U.S. and Coalition 
military forces, from which we conduct precision airstrikes 
against ISIS; carry out intelligence, surveillance, and 
reconnaissance flights; maintain combat search and rescue 
units; and resupply Coalition forces.
    We share a growing commercial relationship, a wide array of 
educational and cultural exchanges, strong scientific 
cooperation, and a valuable foreign policy dialogue on issues 
ranging from Russian aggression in Crimea, to ending the war in 
Syria, to ensuring the territorial unity of Iraq. Turkey and 
the United States also maintain a strong defense trade 
relationship that currently supports upwards of $9 billion in 
defense sales.

Question 12:

    What is the State Department's assessment of the 
information Turkey has supplied to justify the extradition of 
Fethullah Gulen? Where does the extradition request currently 
stand? What are the next steps for an extradition request?

Answer 12:

    The information Turkey has provided to justify the 
extradition of Fethullah Gulen, reviewed by the Department of 
State and the Department of Justice, has not yet met the 
standard required for probable cause. We remain in close touch 
with Turkish authorities to ensure they understand the 
requirements for extradition under U.S. law and our bilateral 
extradition treaty. On November 20, 2017, Turkey provided 
additional materials related to its provisional arrest request 
for Mr. Gulen. The Department of State and the Department of 
Justice are in the process of reviewing these materials.

  Questions for the Record Submitted by Hon. Thom Tillis to CeCe Heil

Question 1:

    Based on your familiarity with Andrew Brunson's case, why 
do you believe he was detained last year?

Answer 1:

    Andrew Brunson's detention on October 7, 2016 is indeed 
perplexing. He had lived peacefully in Turkey for 23 years 
without any incident with Turkish authorities. Therefore, the 
only supposition one can make is that Pastor Brunson's 
detention was a part of the purge President Erdogan implemented 
after the failed coup attempt in July, 2016, just a few months 
before Pastor Brunson's detention. Furthermore, the ridiculous 
nature of the allegations, as well as President Erdogan's 
recent requests to trade Pastor Brunson, seem to support the 
supposition that Pastor Brunson's arrest and continued 
detention is purely political in nature.

Question 2:

    Has Pastor Brunson been formally charged?

Answer 2:
    Pastor Brunson has not been formally charged. He is being 
detained as a suspect, pending an investigation that has gone 
on for over a year. Meanwhile, his file has been sealed and 
there has been no access to any alleged evidence.

Question 3:

    Do Turkish authorities give any explanation for the delay 
in beginning Andrew Brunson's trial? What court proceedings has 
he undergone in the past 13 months?

Answer 3:

    According to the most recent court document, to which we 
have access, the Chief Public Prosecutor's Office is still 
conducting a judicial investigation, which remains at the 
evidence gathering stage, and Pastor Brunson is being detained 
as a suspect pending that investigation. The court proceedings 
have only consisted of detention hearings and appeals, as there 
have yet to be any formal charges.

Question 4:

    To the extent you are familiar, what is Andrew Brunson's 
legal representation in Turkey? What challenges does his 
Turkish representation face?

Answer 4:

    I stay in direct contact with Pastor Brunson's attorney in 
Turkey, Ismail Cem Halavurt. As there is no current legal 
proceeding occurring, the most that Mr. Halavurt can do is to 
continue to file appeals regarding Pastor Brunson's detention 
pending the investigation. One can only imagine the legal and 
political challenges of defending an innocent American pastor 
with a sealed file, who has been turned into a Turkish 
political prisoner.
Question 5:

    Are you aware of any other Christian ministers who have 
been targeted by the Turkish Government in connection with the 
failed coup?

Answer 5:

    Yes, according to the Association of Protestant Churches in 
Turkey, there were several Christian ministers from the United 
States and other countries who were accused of being a ``threat 
to national security'' and were denied entry or detained and 
deported, after the failed coup attempt in July of 2016.

Question 6:
    Please describe the conditions of Andrew Brunson's 
detention. How often is he allowed outside of his cell?

Answer 6:

    Pastor Brunson is only allowed outside of his cell once a 
week for his visitation time, as well as once a month for a 
phone call and a visit from the U.S. Embassy, should one occur.

    Questions for the Record Submitted by Hon. Thom Tillis to Nate 
                               Schenkkan

Question 1:

    You describe the changes to Turkey's judiciary as a 
``generational event.'' What prolonged effects do you foresee 
of these changes for Turkey's governmental institutions, 
business climate, and society?

Answer 1:

    In terms of governmental institutions, the narrow approval 
of the constitutional referendum of April 2017 means that 
Turkey is shifting to a ``super-presidential'' system. Under 
this system, which will go into full effect after the 2019 
elections, the presidency's powers vis-a-vis the legislative 
and judicial branches of government will increase. The position 
of prime minister will be abolished, and the president will 
appoint and dismiss vice presidents and ministers, the 
appointment of which the parliament may not veto (in 
distinction from the United States, where cabinet appointments 
are subject to Senate confirmation). The president may issue 
decrees vaguely defined as ``on matters related to executive 
power,'' may dismiss parliament, and may declare a state of 
emergency. The president will be able to appoint almost half of 
the Council of Judges and Prosecutors and will exercise 
disproportionate influence over the judiciary.

    There have also been negative de facto changes to local 
governance in Turkey. Turkey's local governance has two levels: 
governors appointed by Ankara, and mayors directly elected by 
citizens of municipalities. Due to the large size of some of 
Turkey's cities, mayoralties have been among the most powerful 
political positions in the country; President Erdogan built his 
career as mayor of Istanbul. A previous round of reforms 
increased the powers of mayors in order to strengthen local 
governance and initiate decentralization. Following the 
resumption of conflict in the southeast, however, the 
government has de facto rolled back these changes, using 
extraordinary powers to remove dozens of mayors, mostly from 
Kurdish-affiliated parties, and replace them with appointed 
``trustees.'' In addition, President Erdogan has recently used 
political pressure to force out of office the most powerful 
mayors of his party, including those of Istanbul and Ankara. 
The model is similar to that of President Putin in Russia, who 
has restored direct elections for governors, but regularly 
removes governors prior to elections in order to install 
appointees who then will have an incumbent advantage.

    The cumulative effect of the changes of the last four years 
is that Turkey's governmental institutions are becoming 
consolidated into a pyramid of influence with the president at 
the top--the famous ``power vertical'' of the Russian case. 
While the president, as in any system, may still face political 
constraints, the institutional constraints that distinguish a 
functioning democracy from an authoritarian system have largely 
been hollowed out.

    In terms of the business climate, this consolidation 
increases political risk for investors. Politically guided 
expropriation and punitive tax inspections are now established 
tools of this government, and investors and businesses that run 
afoul of the government may face direct sanctions, for which 
they will have minimal recourse due to the absence of rule of 
law. More broadly, the loss of institutional independence 
affects Turkey's economic policy-making. The constitutional 
reforms give the president the power to draft the central 
government budget, and President Erdogan has repeatedly 
attacked the Central Bank's independence in recent years. In 
particular, he has pressured the bank to lower interest rates, 
in contradiction to orthodox advice that insists on keeping 
rates higher to limit inflation. The downside risks of 
unaccountable and unprofessional fiscal and macroeconomic 
policies are growing with consolidation and the elimination of 
institutional checks on the president.

    In terms of society at large, one of the most important 
long-term effects of the purge will be brain drain. The 
pressure on businesses, universities, media outlets, and civil 
society associations is driving some of Turkey's best human 
capital to leave, or causing Turkish citizens studying and 
working abroad to remain outside of the country.

Question 2:

    What recourse do individuals who lost their jobs and 
shuttered organizations have to appeal these decisions? Are you 
aware of individuals or organizations who have managed to 
reverse these decisions?

Answer 2:

    An extremely small number of individuals--as of August 31, 
2017, it was 1,852 out of 113,000 people purged, less than 2 
percent--have been reinstated into public service via later 
emergency decrees, for reasons that remain unclear. Even for 
these individuals, there remains the stigma of having initially 
been purged, and the damage of having lost their jobs and 
possibly housing for what could have been several months. 
Similarly, a very small number of associations and media 
outlets have had their closures reversed under unclear reasons.

    For the 98 percent of purged individuals who are not 
reinstated, because they were fired through being named 
individually in decrees issued under the state of emergency, 
the dismissals have the force of law and cannot be reviewed by 
the regular court system. Due to the large number of complaints 
about dismissals filed directly to the Constitutional Court, 
and under international pressure, the government said in 
January 2017 it would create a special commission to review 
cases. Tens of thousands of purged individuals have already 
applied to the commission for review, but it is unclear on what 
timeline the commission will review cases; it has yet to issue 
any decisions, and has only started receiving appeals this 
summer. With potentially over 100,000 appeals, it could take 
years for the commission to review all cases.

    On the basis of the commission's formation, both the 
Constitutional Court and the European Court of Human Rights 
(ECtHR) have ruled that domestic remedies have not yet been 
exhausted, and therefore that they cannot hear appeals 
concerning the purges. Human rights defenders in Turkey have 
strongly objected to the ECtHR decision to consider the 
commission an effective domestic remedy, given that five of its 
seven of its members are appointed by the government, which 
issued the emergency decrees in the first place, and the other 
two are appointed by the Council of Judges and Prosecutors, 
which has itself been a target of the purges.

 Questions for the Record Submitted by Hon. Jeanne Shaheen to Jonathan 
                                R. Cohen

Question 1:

    You were recently in Turkey to discuss the aftermath of the 
U.S.'s decision to not process visas until the Turks assured 
the safety of Embassy officials from arrest and shared more 
information on potential security threats. How did these 
conversations go? It is our understanding that in the period 
that the United State stopped processing non-resident visas for 
Turks, Turkey made some headway on other issues, which we don't 
have to detail in an open setting. Do you feel this signals the 
need for a new approach to Turkey?

Answer 1:

    My October visit to Ankara resulted in progress that 
allowed for the November resumption of limited non-immigrant 
visa services, which were suspended due to security concerns. 
My discussions with Turkish officials led to assurances from 
the Government of Turkey that there are no additional local 
employees of our Mission in Turkey under investigation, that 
our local staff will not be detained or arrested for performing 
their official duties, and that Turkish authorities will inform 
the U.S. government in advance if the Government of Turkey 
intends to detain or arrest a member of our local staff. Based 
on these preliminary assurances, we determined the security 
posture had improved sufficiently to allow for the resumption 
of limited visa services in Turkey.
    However, Mr. Ulucay and Mr. Topuz remain in custody and we 
continue to work tirelessly to secure a satisfactory resolution 
of these cases.
    Our relationship with Turkey has always been complex. 
Despite current strains in the relationship, Turkey is a NATO 
Ally and valued partner. We will continue to cooperate with 
Turkey in areas where we share common goals and concerns and we 
will continue engaging Turkey's leadership in areas where we 
have disagreements.

Question 2:

    Fifty percent of Turkey's population spoke out against 
Erdogan centralization of power through the April 2017 
referendum. How is the U.S. government engaging with these 
Turks and building bridges to those who are not necessarily in 
the Turkish government or security structures? What is the full 
U.S. contribution to developing civil society in Turkey (please 
breakdown according to account/program)? I appreciate that the 
funding was restored, but could you explain why the decision 
was made earlier this year to eliminate the minimal amount of 
funding that the U.S. devotes to help bolster Turkish civil 
society? This is concerning particularly since President 
Erdogan is targeting and jailing prominent leaders in Turkey's 
civil society.

Answer 2:

    The quality of Turkey's democracy, in which civil society 
plays a vital role, matters deeply to the United States. We 
regularly engage Turkey's leadership about our concerns over 
the government's targeting of civil society groups and leaders. 
We also use a broad range of traditional State Department 
Public Diplomacy and other tools and programs promoting civil 
society and democracy in Turkey. The Mission Turkey Public 
Diplomacy Section administers an active small grants program, 
providing grants to Turkish civil society organizations that 
support issues such as freedom of expression, countering 
violent extremism, understanding of democratic values and rule 
of law, entrepreneurship, women's rights, and STEM education. 
Grants have supported visits from U.S. experts, extracurricular 
activities for high school and university students, film 
festivals, cultural programs, and a host of other programs. 
Although these grants are relatively small in dollar value, 
they provide much needed support to strengthen Turkey's civil 
society and underscore U.S. commitment to upholding democratic 
values in Turkey.
    Through engagements with Turkey's government and other 
tools, the Department of State has also worked to enhance and 
protect fundamental freedoms, including: supporting the human 
rights of particularly threatened or at-risk communities; 
freedom of speech and the media; promoting transparency and 
accountability; and enhancing legal frameworks to protect human 
rights. The Department would be pleased to provide further 
details in a classified setting.

Question 3:

    Nate Schenkkan testified to the need for U.S. assistance to 
Turkish civil society. Since Turkey does not have a USAID 
mission, what is the best way to administer such assistance? 
Can there be parallels found in the way the U.S. administers 
assistance to civil society groups in other areas without a 
USAID mission that are also hostile to the U.S., like Russia? 
Which civil society groups are in the most need? Is the EU 
providing assistance to Turkish civil society?

Answer 3:

    The Department of State implements programs worldwide 
focused on advancing democracy and human rights priorities, 
including breaking barriers that limit access to free and 
credible information, combatting threats against journalists, 
promoting freedom of religion and conscience, and addressing 
the shrinking space for civil society as a means to promote 
long-term stability. The European Union also provides civil 
society assistance in Turkey.
    The Department's programs operate in closed and closing 
environments around the world, including in some of the most 
restrictive and hostile operating environments. We work closely 
with our implementing partners to continually evaluate and 
adjust programmatic approaches and operating procedures, and we 
apply lessons-learned from our experiences in other countries. 
All of our programs require risk mitigation strategies and 
contingency plans to ensure both safety of our participants and 
ability to adapt to worsening situations.
    The Department would be pleased to provide further details 
in a classified setting regarding lessons learned from 
implementing programs in other non-USAID presence countries, 
and how our programs could assist civil society and help to 
address human rights concerns in Turkey.

Question 4:

    Given the mass arrests in Turkey, do you feel that Turkish-
Americans who may have been critical of the Turkish government 
should visit Turkey at this time? Is it safe for those who have 
been public about their criticisms? When do you think these 
Turkish-Americans should know that their safety may be in 
jeopardy? Do travel warnings to Turkey reflect the risks to 
Turkish-Americans?

Answer 4:

    The most recent Turkey travel warning, issued on September 
28, 2017, recommends that all U.S. citizens carefully consider 
the need to travel to Turkey at this time. The travel warning 
notes that under the state of emergency, security forces have 
expanded powers, including the authority to detain any person 
at any time. It also notes that the Turkish government has at 
times restricted political gatherings, scrutinized non-
governmental organizations, restricted internet access, and 
blocked media content. The travel warning informs Turkish 
Americans that consular access to detained U.S. citizens who 
hold Turkish nationality may be denied and that Turkish 
authorities have legally banned some U.S. citizens, most of 
whom are dual U.S.-Turkish nationals, from departing Turkey.

                  Letter from Kubra Golge to Congress

November 15, 2017

Dear Congressmen:

    My husband, Serkan Golge, and I and our two small children 
are dual U.S.-Turkish citizens. Until my husband's arrest last 
year, we were residents of Houston, Texas, where my husband had 
been working as a senior research scientist at the NASA Johnson 
Space Center. In July 2016, while we were visiting Serkan's 
family for a few days in Turkey, he was suddenly taken into 
custody as we were packing to return home to Houston. Like 
hundreds of others in Turkey, he has been charged with 
membership in the movement founded by Islamic cleric Fethullah 
Gulen. Because President Erdogan has accused Mr. Gulen of 
ordering followers of his movement to carry out the attempted 
coup last year, the Gulen movement is now considered a 
terrorist organization. Serkan's trial began in April 2017, and 
his fifth hearing is scheduled for this Friday.

    There is no credible evidence to support the charges 
against my husband. Some law enforcement officers claim that 
possession of a U.S. $1 bill can indicate membership in the 
Gulen movement. I do not understand why a U.S. citizen having a 
$1 can be considered criminal. I am very afraid that my husband 
is not receiving a fair trial. There is an atmosphere of fear 
in Turkey. Lawyers who defend people charged with connections 
to Gulen risk losing their jobs, as do the judges hearing these 
cases. Serkan has been imprisoned for more than 15 months--much 
of that time in solitary confinement--and his health is 
deteriorating. He has high blood pressure and kidney stones. 
This situation is unbearable for me and my children. We worry 
about Serkan's poor health. Although I am not accused of any 
wrongdoing, the police have told me that I am not allowed to 
leave Turkey. My children are only seven and two years old, and 
I am afraid that I won't be able to protect them if they or I 
are threatened by the authorities. We simply want to go home 
and feel safe again.

    I respectfully ask for you to look into our untenable 
situation and help us in any way that you can. Thank you for 
your kind attention to this important human rights matter.

        Sincerely,

        Kubra Golge

        Statement on the Status of Academics and Scientists in 
          Turkey from the Committee of Concerned Scientists, 
                           November 15, 2017

HISTORY:

    Good morning distinguished members, Congressmen and women, 
and guests. The Committee of Concerned Scientists (``CCS''), 
has been working with scientists and academics in Turkey for a 
very long time. Since January 2016 requests for our assistance 
have increased dramatically from this country. Problems for 
this population, from Turkey, have escalated as they have been 
the target of the Erdogan government's recriminations for the 
most recent coup attempt.
    The Committee of Concerned Scientists has been advocating 
for the human rights of scientists, physicians, engineers and 
academics since February 1974. Prior to that, many of our 
members were actively involved with the Russian Refusnik 
movement, which assisted scientists in communist countries get 
materials and information they needed; as well as helping them 
to get their work out of their respective countries and made 
available to the scientific world-at-large. Additionally, 
several of our Board members are Nobel Laureates. Currently, 
CCS works with scientists, academics, physicians and engineers 
whose human rights have been violated. At this point in time, 
Turkey is well on its way to making it to the top of the list 
of countries that are involved in human rights violations.
    The current actions of the government of Turkey, in its 
sweeping purge of dissent, both real and imagined, is crippling 
the credibility and integrity of Turkey's academic and 
scientific institutions, and doing real damage to the Turkish 
economy and the Turkish state. The May 2017 assault by 
bodyguards of President Recep Tayyip Erdogan on peaceful 
protestors in Washington, D.C., demonstrates how Turkish 
repression has the potential to spill across borders, and the 
detention of scores of Turkish scholars who are either resident 
in, or citizens of, European countries or the United States 
demonstrates how Turkey's continuing attack on academia is a 
significant threat to scholarship throughout the OSCE region.
    The Commission on Security and Cooperation in Europe (U.S. 
Helsinki Commission) is uniquely positioned to make a 
difference, and we urge the Commission to make it a top 
priority to confront this challenge.
    There was evidence of civil unrest in Turkey in January of 
2016, when a Peace Petition was published accusing the Erdogan 
government of carrying out heavy-handed operations against 
Turkey's Kurdish population. It was signed by more than 1,000 
academics. At that time, the existence of such a petition upset 
Erdogan and the ruling AKP Party. The government began taking 
retribution against the academics who signed the petition. 
Hundreds of academics who signed the petition were either 
terminated from their positions at universities, or were 
detained when police raided their homes and/or offices.
    Shortly thereafter, an attempted coup took place on July 
15, 2016. Since that time the government has mounted a 
widespread purge in the name of security. On the night of the 
coup attempt, 234 persons were killed and more than 2,000 were 
injured. Erdogan was away from the seat of government at that 
time but was informed, and mounted a defense, ultimately 
thwarting the coup attempt.
    The government then declared a state of emergency, 
suspended the rule of law (which continues to this day--over a 
year later) and blamed the coup on Fethullah Gulen, who earlier 
had been Erdogan's ally. The relationship has deteriorated into 
an extremely contentious one, causing Gulen to retreat from 
Turkey and live in exile in the United States. (Gulen continues 
to deny any involvement in this coup attempt.) It appears that 
the academics and scientists who signed the Peace Petition back 
in January have been lumped into the class of those considered 
against the state, and therefore, ``terrorists'' or supporters 
of terrorists.
    As of August 2017, 50,000 people have been arrested, and 
150,000 have lost their jobs or been suspended. Of those, 7,500 
are academics and college administrators, with 60,000 students 
being displaced. Hundreds have been arrested and jailed, 
awaiting outcomes of lengthy investigations and trials. Many 
have been charged and released while awaiting trial. Under 
these circumstances, those released have had to relinquish 
their passports, making it impossible for them to leave the 
country.
    To add to their problems, when they apply for new jobs 
employers are notified that they were terminated by decree, so 
nobody is willing to hire them. In addition, they are banned 
from civil service positions. Supporting themselves and their 
families has become difficult to impossible. The Executive 
Director of Scholars at Risk, Robert Quinn, has noted that 
these actions against higher education institutions, scholars, 
staff and students strongly suggest retaliation for the non-
violent exercise of academic freedom, freedom of expression and 
freedom of association. This is especially true of actions 
against individuals based solely on their public endorsement of 
the Academics for Peace petition or their alleged affinity for 
the so-called Gulenist movement.

PROBLEMS FOR ACADEMICS/SCIENTISTS:

    <bullet> LLoss of jobs

    <bullet> LLoss of tenure

    <bullet> LLoss of freedom

    <bullet> LCriminal charges

    <bullet> LInability to Pursue Studies

    <bullet> LInability to Provide for Self/Family

    <bullet> LInability to Leave Country--Jailed within country 
borders or passport seized

    <bullet> LInability to Enter Country

    <bullet> LMissing family events (weddings, graduations, 
births, funerals, etc.)

    <bullet> L Long periods of detention

    <bullet> LLong periods awaiting trials

    <bullet> LLabeled as traitors and terrorists

    <bullet> LNames end up on decree lists, virtually ending 
life as once lived

    <bullet> LGrowing number of classes and courses without 
instructors

Prominent Cases of Scientists/Academics Impacted:

Istar Gozaydin:

    A professor of Sociology from Gediz University and a 
founder of Turkey's branch of the Helsinki Citizens' Assembly, 
Istar Gozaydin was detained and arrested in December 2016 on 
vague terrorism-related charges. She started a hunger strike, 
and one hundred days after her detention she was released, but 
barred from traveling, and she is expected to return to court 
to face charges of ``being a member of a terrorist 
organization.''

Muzzafer Kaya, Esra Mungan and Kivanc Ersoy:

    The government of Turkey was cracking down on dissent, 
human rights and academic freedom, well before the July 2016 
coup attempt. A Peace Petition, signed by over 1,000 academics 
and read out at a press conference in January 2016, drew a 
swift and brutal response from the government of Turkey, with 
27 academics suspended and at least 30 dismissed from their 
jobs. All the signers of the Peace Petition were placed under 
investigation, perversely, for crimes of ``terrorism''. By 
March 2016, three academics--Muzzafer Kaya (social work), Esra 
Mungan (psychology), and Kivanc Ersoy (mathematics)--had been 
arrested for ``making terrorist propaganda''. They have had 
been arrested for ``making terrorist propaganda''. They have 
had five hearings and are awaiting a sixth in December while 
the court considers a request from the prosecutor in the case 
to change to charges to ``insulting the Turkish nation''.

Serkan Golge:

    A Turkish-American scientist who works for NASA, Serkan 
Golge has been detained since July 2016 and placed in solitary 
confinement after an estranged family member reported him for 
spying. Has since been charged with being a supporter of Gulen.

Nuriye Gulmen and Semih Ozakca:

    After the July 2016 coup attempt, the crackdown on academia 
intensified. Like thousands of other scholars and academic 
professionals, professor of literature Gulmen and an elementary 
school teacher Ozakca were summarily dismissed from their jobs 
in November 2016, without explanation. Exercising their right 
to protest, they began a hunger strike in March 2017, and in 
May they were detained on absurd charges of ``membership in a 
terrorist organization'' and ``propaganda for a terrorist 
organization''. Ozakca was ordered released on October 20 
(though required to wear an electronic monitor), but Gulmen 
remains imprisoned. On November 8, their lawyer, who is also 
the president of the Progressive Lawyers' Association (CHD), 
Selcuk Kozagacli, was also detained, and on Monday was remanded 
to prison, also charged with membership in a terrorist 
organization. Their case illustrates the uncompromising 
intolerance of dissent and complete disdain for human rights 
that has overtaken the Turkish government. Its ongoing purge 
has destroyed tens of thousands of promising academic careers.

Ismail Kul:

    Many scholars have been arrested by the government of 
Turkey because of perceived connections to Fethullah Gulen, the 
U.S. based expat alleged by the Turkish government to bear 
responsibility for the July 2016 coup attempt. Some Turkish-
American academics have been detained and are clearly being 
held as bargaining chips in the Turkish government's quest to 
have Gulen extradited back to Turkey. Ismail Kul, a U.S.-based 
chemistry professor at Widener University in Delaware, was 
arrested in August 2016, and has been in detention ever since, 
because he had met Fethullah Gulen. This, despite the fact that 
it was Ahmet Aydin, a prominent member of the current ruling 
Justice and Development Party (AKP) of Turkey who had 
introduced Professor Kul to Gulen. This cynical effort to 
detain academics and scholars on such flimsy pretexts, all for 
the purpose of facilitating a trade for Gulen, is cruel and 
profoundly unjust, and it is destroying innocent lives.

Ahmet Turan Ozcerit:

    An Associate professor at Sakarya University's Faculty of 
Computer and Information Science, Ahmet Turan Ozcerit was 
arrested and detained for 13 months. He was eventually release 
after being diagnosed with liver and intestinal cancer.

    There are just stories, after stories, after stories of 
professors and scientists who have lost their jobs, are being 
detained, and have been arrested and charged as members of 
``terrorist'' organizations.

Action for the Helsinki Commission, Congresspersons, 
                    Citizens

    The ongoing systematic and ruthless degrading of Turkey's 
academic and scientific institutions is a profound tragedy, not 
just for Turkey, but for the whole OSCE region, and indeed the 
world. It is vital that action be taken to reverse this trend 
and restore Turkey to its rightful place as an indispensable 
player on the global scientific and academic stage. We urge the 
U.S. Helsinki Commission to make the current assault of 
science, scholarship, and basic human rights in Turkey a top 
priority.
    We urge the Commission to develop and promote policies that 
will protect the rights of Turkish scientists and scholars to 
travel within the OSCE region, and to proactively work to 
ensure that academics at risk in Turkey are able to relocate 
safely to other OSCE countries where they can continue their 
scholarly pursuits.
    We urge the Commission to actively engage all OSCE 
governments to demand that the government of Turkey respect the 
human rights of scholars and scientists, including the rights 
to freedom of speech, assembly, and belief; as well as the 
rights to travel and enjoy basic academic freedoms. The 
government of Turkey must also be called upon in the strongest 
possible terms to end the use of torture, arbitrary detention, 
and unfair trials.
    We urge the Commission to work with OSCE governments to 
bring about a just resolution in the cases of the scholars 
mentioned above, as well as the thousands of other Turkish 
scholars and scientists who have been unjustly imprisoned or 
wrongfully dismissed from their academic institutions.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]



  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
